<html>
<title> - IS THE MIDWAY ATOLL NATIONAL WILDLIFE REFUGE BEING PROPERLY MANAGED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                    IS THE MIDWAY ATOLL 
                    NATIONAL WILDLIFE REFUGE 
                    BEING PROPERLY MANAGED?

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, November 20, 2014

                               __________

                           Serial No. 113-91

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                ___________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
91-523 PDF                WASHINGTON : 2015                      
            
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  
                    
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio
                                --------                                
                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Thursday, November 20, 2014......................     1

Statement of Members:
    Bordallo, Hon. Madeleine, a Representative in Congress from 
      Guam.......................................................     3
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Daak, Mike, Hilo, Hawaii.....................................    13
        Prepared statement of....................................    14
    D'Angelo, James M., Ph.D., USAF Retired, Chairman, 
      International Midway Memorial Foundation...................    21
        Prepared statement of....................................    23
    Foerster, Kevin, Regional Chief, National Wildlife Refuge 
      System, Pacific Region, U.S. Fish and Wildlife Service.....     5
        Prepared statement of....................................     7
    Jordan, Chris, Chris Jordan Photographic Arts................    10
        Prepared statement of....................................    11

Additional Materials Submitted for the Record:
    Fleming, Hon. John and Hon. John Duncan, July 8, 2014 letter 
      to Government Accountability Office........................    44
    Friends of Midway Atoll National Wildlife Refuge, Prepared 
      statement of...............................................    44
    IMMF Midway Feasibility Study, a Document to Create Sound 
      Fiscal Policy for the Midway Atoll at no Taxpayers Expense.    48
    List of documents submitted for the record retained in the 
      Committee's official files.................................    55
    Removal Action Work Plan--Feb 2012, by NW Demolition and 
      Environmental, prepared for U.S. Fish & Wildlife Service 
      for Midway Atoll National Wildlife Refuge..................    53
    U.S. Fish & Wildlife Service, Midway Atoll National Wildlife 
      Refuge, Historic Preservation Plan 2010....................    46
                                     



OVERSIGHT HEARING ON IS THE MIDWAY ATOLL NATIONAL WILDLIFE REFUGE BEING 
                           PROPERLY MANAGED?

                              ----------                              


                      Thursday, November 20, 2014

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:12 a.m., in 
room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Bordallo, Lowenthal and 
Garcia.
    Also Present: Representative Bentivolio.
    Mr. Fleming. The subcommittee will come to order. The 
Chairman notes the presence of a quorum.
    Good morning. Today we will hear testimony on whether the 
Fish and Wildlife Service is properly managing this unique, but 
isolated, refuge, which is more than 1,200 miles northwest of 
Honolulu, Hawaii.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Fleming. As a former naval officer who was stationed in 
the Pacific, I have a great appreciation and recognition of the 
fact that the Battle of Midway was a pivotal battle in World 
War II and one of the most decisive naval events in world 
history.
    Once the fighting stopped, it was clear that the efforts of 
the Japanese Navy to control the Pacific had been halted, and 
they were forced, in the words of Admiral Samuel Eliot Morison, 
to ``an unexpected, unwelcomed, and defensive role.''
    During the battle, 349 Americans, including 49 men on 
Midway Island, made the ultimate sacrifice for the freedoms 
that we all cherish. In 1997, the U.S. Navy transferred title 
to the Midway Island to the U.S. Fish and Wildlife Service and 
it was established as a national wildlife refuge.
    The purpose of the refuge was to maintain and restore its 
natural, biological diversity, to provide for the conservation 
and management of fish and wildlife and their habitat within 
the refuge boundaries, and to recognize and maintain the 
historic significance of Midway Atoll.
    Two years later, the Congress approved and President 
Clinton signed into law a bill that designated the entire 
island as a national memorial to the Battle of Midway. Section 
116 of Public Law 106-113 stipulates that the Secretary shall 
consult on a regular basis with such organizations, including 
the International Midway Memorial Foundation, on the management 
of the National Memorial.
    It is now 15 years since the National Memorial has been 
established and it is appropriate for the Congress to inquire 
whether the purposes of the refuge in Public Law 106-113 are 
being fulfilled.
    For instance, has the Service consulted with the 
International Midway Memorial Foundation on a regular basis? 
Has the refuge been open to the public? Does the refuge have an 
organized visitors program? And has the Service properly 
maintained the various historic structures they are entrusted 
to protect?
    Based on our investigation, it is clear that the Service 
has experienced a number of challenges in managing the Midway 
Island Refuge, and objective observers can certainly question 
whether it was a mistake to transfer this sacred ground to an 
agency that is far better equipped to maintain birds than 
visitors.
    It is distressing to learn that the Service does not 
regularly consult with the International Midway Memorial 
Foundation, that the private company that operated the visitors 
program left the island more than 12 years ago, that a number 
of historic structures have been either destroyed or are marked 
for demolition, that the refuge has been entirely closed to the 
public for more than 2 years, and that, according to the 
Service, it would cost $1.5 million to operate a 6-month 
visitors program.
    Finally, in July of this year, Congressman John Duncan and 
I requested that the Government Accountability Office conduct a 
comprehensive analysis and report to the Congress on the 
management of the financial and historic aspects of the Midway 
Atoll. I am pleased that GAO has accepted our request. I am 
looking for answers from our witnesses today and from GAO in 
the not-too-distant future.
    [The prepared statement of Mr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
            Fisheries, Wildlife, Oceans and Insular Affairs
    Good morning, today we will hear testimony on whether the Fish and 
Wildlife Service is properly managing this unique but isolated refuge 
which is more than 1,200 miles northwest of Honolulu, Hawaii.
    As a former naval officer who was stationed in the Pacific, I have 
a great appreciation and recognition of the fact that the Battle of 
Midway was a pivotal battle in World War II and one of the most 
decisive naval events in world history.
    Once the fighting stopped, it was clear that the efforts of the 
Japanese Navy to control the Pacific had been halted and they were 
forced in the words of Admiral Samuel Eliot Morison to ``an unexpected, 
unwelcomed, and defensive role.'' During the battle, 349 Americans, 
including 49 men on Midway Island, made the ultimate sacrifice for the 
freedoms that we all cherish.
    In 1997, the U.S. Navy transferred title to the Midway Island to 
the U.S. Fish and Wildlife Service (Service) and it was established as 
a national wildlife refuge. The purpose of the refuge was to ``maintain 
and restore its natural biological diversity; to provide for the 
conservation and management of fish and wildlife and their habitat 
within the refuge boundaries; and to recognize and maintain the 
historic significance of Midway Atoll.''
    Two years later, the Congress approved and President Clinton signed 
into law a bill that designated the entire Island as the National 
Memorial to the Battle of Midway. Section 116 of Public Law 106-113 
stipulates that ``the Secretary shall consult on a regular basis with 
such organizations, including the International Midway Memorial 
Foundation, on the management of the National Memorial.''
    It is now 15 years since the National Memorial has been established 
and it is appropriate for the Congress to inquire whether the purposes 
of the refuge and Public Law 106-113 are being fulfilled.
    For instance, has the Service consulted with the International 
Midway Memorial Foundation on a regular basis, has the refuge been open 
to the public, does the refuge have an organized visitors program and 
has the Service properly maintained the various historic structures 
they are entrusted to protect?
    Based on our investigation, it is clear that the Service has 
experienced a number of challenges in managing the Midway Island refuge 
and objective observers can certainly question whether it was a mistake 
to transfer this sacred ground to an agency that is far better equipped 
to manage birds than visitors.
    It is distressing to learn that the Service does not regularly 
consult with the International Midway Memorial Foundation, that the 
private company that operated the visitors program left the island more 
than 12 years ago, that a number of historic structures have been 
either destroyed or are marked for demolition, that the refuge has been 
entirely closed to the public for more than 2 years and that according 
to the Service, it would cost $1.5 million to operate a 6-month 
visitors program.
    Finally, in July of this year, Congressman John Duncan and I 
requested that the Government Accountability Office (GAO) conduct a 
comprehensive analysis and report to the Congress on the management of 
the financial and historic aspects of the Midway Atoll. I am pleased 
that GAO has accepted our request. I am looking for answers from our 
witnesses today and from GAO in the not-too-distant future.

                                 ______
                                 

    Mr. Fleming. I am now pleased to recognize the acting 
Ranking Member, Congresswoman Madeleine Bordallo, for any 
statements she would like to make.

 STATEMENT OF THE HON. MADELEINE BORDALLO, A REPRESENTATIVE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I would like to welcome our witnesses this morning.
    The Battle of Midway was a critical turning point for the 
United States in the Pacific theater during World War II. It 
helped to essentially eliminate the Japanese Navy and is a 
defining moment in our history.
    We owe not only a debt of gratitude, but also a significant 
measure of our freedom, to the brave sailors, the airmen, 
soldiers, and Marines who fought and died during the Battle of 
Midway.
    As Guam's congressional representative and as a ranking 
Democratic Member of the House Armed Services Subcommittee on 
Readiness, I have a keen understanding of the importance of the 
U.S. military history in the Pacific.
    Particularly as we focus our national strategic attention 
to the Asia-Pacific Region, we must not forget the past 
sacrifices made by so many to keep our country safe and free.
    I also have firsthand experience with the Pacific Island 
National Wildlife Refuge that has serious public access issues, 
the Guam National Wildlife Refuge, access to the refuge itself, 
and to private property contained within it has been 
contentious since its establishment in 1993, as has the 
conflict between the military activity and resource management.
    So I continue to work to resolve some of these issues and 
protect natural resources while accommodating military training 
and public access.
    I must point out, however, that Guam and Midway are 
markedly different. Although United Airlines has tried its best 
to link our two islands, Guam has a large resident population 
and an active naval base and an Air Force base, while Midway 
has neither.
    Parts of Guam National Wildlife Refuge are co-managed with 
the Navy, in contrast Midway was fully transferred from the 
Navy to the Department of the Interior in 1996.
    Finally, Midway is part of the Northwest Hawaiian Islands 
Marine National Monument, designated by President George W. 
Bush in 2006. The uniqueness of Midway Atoll makes adoption of 
different management strategies there appropriate and 
necessary.
    Access to Midway is very expensive and very time-intensive. 
We will hear from some witnesses today that a private company 
offered to operate the refuge for free, but the evidence shows 
that is historical fiction.
    In a March 2002 interview with the Honolulu Advertiser, the 
vice president of the Midway Phoenix Corporation stated the 
following--and I quote--"I feel certain that, strictly from a 
business standpoint, there is no contracting group in the world 
that is going to go out there and do it for free. We certainly 
couldn't make it work doing it for free.''
    He was speaking about Midway Phoenix's attempt to profit 
from a tourism venture while also managing facilities at the 
refuge at no cost to taxpayers, as its agreement with the Fish 
and Wildlife Service stipulated.
    Midway Phoenix lost $15 million on its investment, and this 
quote is an admission that the company over-promised and under-
delivered. The lesson as always: If something sounds too good 
to be true, it probably is.
    Preservation of historic resources is expensive. If we 
valued it as a country, we should pay for it. Unfortunately, 
the budget for Midway Atoll has been cut by 25 percent since 
2005.
    Instead of recognizing that fact, Committee Republicans are 
scapegoating a Federal agency that is simply trying to do a big 
job with insufficient resources.
    If any member of this committee is unsatisfied with the 
management of historic resources at Midway, I invite them, him 
or her, to join me in signing this letter to the Appropriations 
Committee requesting additional funding to do the job right or 
we could also see fit if United would like to make it a 
practice for flights from Honolulu to Guam to always stop at 
Midway Island.
    Instead of trying to manufacture and perpetuate 
controversy, I would also like to use this hearing to highlight 
a problem facing Midway Atoll and the entire Pacific Ocean: 
marine debris.
    All kinds of trash, from derelict fishing nets, to plastic 
bags, to cigarette lighters, are carelessly dumped into our 
oceans every day from all corners of the Earth. And this 
pollution has severe impacts on fish and wildlife resources.
    And we will hear today from Photographer Chris Jordan, who 
has investigated this firsthand on Midway. And I look forward 
to hearing from not only Chris, but the other witnesses as 
well.
    I thank you, and I yield back, Mr. Chairman.
    Mr. Fleming. Gentlelady yield backs.
    I now ask unanimous consent that the gentleman from 
Michigan, Mr. Bentivolio, be allowed to sit with the committee 
and participate in the hearing.
    Hearing no objection, so ordered.
    Well, we will now hear from our panel of witnesses, which 
includes Mr. Kevin Foerster, Regional Refuge Chief, Pacific 
Region, U.S. Fish and Wildlife Service; Mr. Chris Jordan, Chris 
Jordan Photographic Arts; Mike Daak of Hilo, Hawaii; and Dr. 
James M. D'Angelo, Chairman, International Midway Memorial 
Foundation.
    Your written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes, as outlined in our invitation letter to you and under 
Committee Rule 4(a).
    Our microphones are not automatic. So please press the 
button when you are ready to begin.
    I also want to explain how our timing lights work. Very 
simply, you have 5 minutes. And a light will remain green until 
1 minute is left. It will turn yellow. When it turns red, then 
you have already gone past your 5 minutes; so, please wrap up 
immediately.
    Mr. Foerster, you are now recognized for 5 minutes to 
present testimony on behalf of the U.S. Fish and Wildlife 
Service.

STATEMENT OF KEVIN FOERSTER, REGIONAL CHIEF, NATIONAL WILDLIFE 
 REFUGE SYSTEM, PACIFIC REGION, U.S. FISH AND WILDLIFE SERVICE

    Mr. Foerster. Good morning, Chairman Fleming, Congresswoman 
Bordallo, and members of the subcommittee.
    I am Kevin Foerster. I am the Regional Chief of the 
National Wildlife Refuge System with the U.S. Fish and Wildlife 
Service in the Pacific Region. I appreciate the opportunity to 
present the Service's testimony today regarding Midway Atoll 
National Wildlife Refuge and the Battle of Midway National 
Memorial.
    In the Pacific Region, there are 67 national wildlife 
refuges spread throughout Idaho, Oregon, Washington, Hawaii, 
and the Pacific Islands. The Service also has management 
responsibilities for five national monuments in the Pacific. In 
1 year, these refuges host nearly 8 million visitors, generate 
over $320 million for local communities, and support almost 
5,000 local jobs.
    Midway Atoll contains only 1,500 acres and it lies 1,300 
miles from Honolulu. Although it is small and remote, Midway is 
a very vitally important place. It is a national memorial 
created to honor and remember the historic events that happened 
there during World War II. The atoll provides essential habitat 
for a host of fish, wildlife, and plants.
    In addition to its designation as a refuge and a memorial, 
it is also part of the Papahanaumokuakea Marine National 
Monument, which is a UNESCO World Heritage Site. It also serves 
as an emergency landing site designated by the FAA for the 
nearly 35,000 jet aircraft transiting the Pacific Ocean each 
year.
    Biologically, Midway is special. More than 3.5 million 
birds call Midway home. This includes about 70 percent of the 
world's population of Laysan albatross, the largest population 
of these grand birds on Earth.
    The atoll is also home to many endangered species, 24 
native plant species, and a host of marine mammals, fish and 
invertebrates. The purpose of the refuge is to ensure 
ecological integrity and achieve strong, long-term protection 
for native resources as well as our cultural heritage.
    The Service takes our role as trustee for this historic 
atoll seriously. We are committed to honoring America's 
veterans by commemorating their bravery and sacrifice by 
interpreting the history for the public.
    We are also dedicated to conserving America's wildlife 
heritage through stewardship of Midway's natural resources. We 
work to strive a balance to achieve the purposes for which the 
refuge and memorial were designated.
    Flat and declining budgets, increasing costs, reduced 
staff, and public safety concerns have caused the Service to 
suspend visitor services programs at Midway. We did not come to 
that decision lightly. Midway is a national memorial and a 
monument to those who served during the pivotal Battle of 
Midway.
    But unlike the bronze and marble monuments here in our 
Nation's Capital, Midway's concrete and wood structures weren't 
built to withstand the ravages of the saltwater tropical 
environment.
    As an example, we recently put $1.6 million into renovating 
the Charlie Barracks to preserve it to make it usable for 
visitors and staff. Now we are finding that other aspects of 
the concrete building require substantial repairs before the 
barracks can be safely used.
    When the military was active on Midway, the facility 
supported more than 5,000 people. Only 40 people currently live 
on Midway, but a significant amount of military infrastructure 
remains.
    Midway's story is more than buildings. It is the courage 
and sacrifice of our veterans. We have worked with a variety of 
partners and stakeholders to safeguard the history of Midway 
Atoll, and now we are looking to the future.
    We intend to open the island to visitors when capacity 
again becomes available. Until then, we are looking at 
partnerships and opportunities to bring the Battle of Midway 
and the story of Midway Atoll to many more Americans than would 
be able to visit the atoll even with the restored visitor 
services program.
    Our new refuge manager out on Midway, Daniel Clark, is also 
a captain in the U.S. Coast Guard Reserve. Refuge Manager Clark 
has been tasked to lead meaningful and frequent collaboration 
and communication with the International Midway Memorial 
Foundation. He and his staff have collaborated with other 
veterans organizations, such as the American Battle Monuments 
Commission.
    We are committed to working with the IMMF and other 
partners like the Commission to honor the men and women who 
have served during the Battle of Midway and at Midway Atoll. We 
view our role as trustee as one of utmost importance. We will 
continue to work diligently to balance the natural resource 
stewardship needs of the refuge while honoring our 
responsibility as custodians of the Battle of Midway National 
Memorial.
    Mr. Chairman, we appreciate your interest in this issue, 
and we look forward to working with the subcommittee, IMMF, and 
the parties interested in Midway Atoll.
    Thank you for the opportunity to speak today.
    [The prepared statement of Mr. Foerster follows:]
 Prepared Statement of Kevin Foerster, Regional Chief, Pacific Region, 
   National Wildlife Refuge System, U.S. Fish and Wildlife Service, 
                       Department of the Interior
    Good afternoon Chairman Fleming, Ranking Member Sablan, and members 
of the subcommittee, I am Kevin Foerster, Regional Chief for the 
National Wildlife Refuge System in the U.S. Fish and Wildlife Service's 
Pacific Region within the Department of the Interior. I appreciate the 
opportunity to testify before you today regarding the Midway Atoll 
National Wildlife Refuge (Refuge) and Battle of Midway National 
Memorial (Memorial). Funding, conservation, staffing, and safety 
challenges have caused the Service to suspend visitor services at the 
Refuge, which also affects the public's ability to experience the 
Memorial. The Service is working to restore those visitor services, 
despite the challenges we face. We look forward to discussing them with 
you today.
                    national wildlife refuge system
    The National Wildlife Refuge System (Refuge System) is the world's 
premiere network of public lands devoted solely to the conservation of 
wildlife and habitat. The Refuge System encompasses over 150 million 
acres of land and water and preserves a diverse array of land, wetland, 
and ocean ecosystems. The Refuge System offers about 47 million 
visitors per year the opportunity to fish, hunt, observe and photograph 
wildlife, as well as learn about nature through environmental education 
and interpretation. These visitors make refuges an important economic 
driver for local communities, generating nearly $2.4 billion each year. 
Investing in the Refuge System is a sound use of taxpayer dollars as 
each dollar appropriated for the Refuge System returns nearly $5 in 
economic benefits. Refuges also provide local communities with other 
valuable ecosystem services, such as improved water quality, increased 
property values, and access to quality wildlife-dependent recreation.
    In the Pacific Region, there are 67 national wildlife refuges and 5 
national monuments located in Hawaii, Guam, American Samoa, the 
Northern Mariana Islands, Idaho, Oregon, and Washington. These refuges 
encompass wetlands, estuaries, grasslands, nesting seabird colonies, 
forests, remote atolls with extensive coral reef ecosystems, high 
mountain deserts and all of the variations in between. In the 2013 
Banking on Nature Report, a report on the economic benefits of national 
wildlife refuge visitation to local communities, the Service estimates 
that nearly 8 million people visited refuges in the Pacific Region, 
generating over $320 million for and supporting almost 5,000 jobs in 
local communities.
    However the Refuge System, with all its benefits, is facing ever 
increasing pressures and difficulties. Populations are growing rapidly, 
the amount of undeveloped land is declining, the economic environment 
is challenging, and we are faced with conservation crises on several 
fronts. As a result of the Budget Control Act of 2011, the Refuge 
System saw flat and declining budgets for 3 consecutive years, and we 
have had to make tough decisions and set priorities within the funding 
available.
    In the Pacific Region, this has led to the reduction of capacity 
and staff positions. The Service is prioritizing capacity and staff 
where we can provide the most benefit for wildlife and the most 
opportunity for public use. Across the Refuge System in the Pacific 
Region, the Service is working to balance its mission, as directed by 
Congress, to protect America's natural resources, while also providing 
opportunities for public use, when compatible with the purpose for 
which the Refuge was established.
  midway atoll national wildlife refuge and battle of midway national 
                                memorial
    Of the refuges and within the monuments in the Pacific Region, 
Midway Atoll National Wildlife Refuge (Refuge) and Battle of Midway 
National Memorial is one of the most unique. It provides vitally 
important habitat for a host of species and it represents a singular 
confluence of natural, historical, and cultural significance in the 
Pacific Ocean Basin. In addition to Midway Atoll's designation as a 
Refuge and a National Memorial, it is a part of the Papahanaumokuakea 
Marine National Monument, an UNESCO World Heritage Site. Midway Atoll's 
unique natural resources include support to at least 21 species of 
seabirds totaling more than 3.5 million individuals. It is the site of 
the largest annual congregation of nesting albatrosses in the world, 
with more than 1 million individuals of three different species 
depending on the atoll each year. An estimated 70 percent of the 
world's population of Laysan albatross nests on Midway Atoll annually--
more than anywhere else on earth. In addition to the birds, the nearly 
1,500 acres of terrestrial habitat host 24 important native plant 
species, and the federally endangered Laysan duck and short-tailed 
albatross. The 580,000 acres of marine habitat provide homes to a 
resident population of spinner dolphins, the federally endangered 
Hawaiian monk sea, and more than 250 species of reef fish and 
invertebrates, with some of the highest level of reef fish endemism 
rates recorded in the world.
    Henderson Field on Midway Atoll is also a Federal Aviation 
Administration designated Extended Twin-Engine Operations Site 
providing an emergency landing site cooperatively operated by the 
Service and Federal Aviation Administration (FAA) for nearly 35,000 jet 
aircraft transiting the Pacific Ocean.
    The lands and waters of the Refuge were designated the Battle of 
Midway National Memorial on September 13, 2000--the first national 
memorial to be designated on a National Wildlife Refuge. The Service 
takes our role as trustee for this historic atoll seriously, honoring 
the sacrifice and courage of our veterans and conserving America's 
natural heritage.
    In 1942, during World War II, the Japanese forces sought to expand 
their zone of defense in the Pacific. Their plan was to establish a 
diversionary attack of the Aleutians in Alaska, thereby forcing U.S. 
carriers to race to their rescue. The Japanese carriers could intercept 
and destroy them at sea, moving on to the primary goal of securing 
Midway Atoll and using it as a strategic point to take on and defeat 
the United States. However, the Americans were able to break Japanese 
naval code and anticipated the attack. Between the 4th and 6th of June, 
1942, U.S. forces successfully defended Midway Atoll--sinking four 
Japanese aircraft carriers, effectively eliminating the Imperial Navy, 
and changing the course of the War in the Pacific.
    Midway Atoll became an ``overlay'' national wildlife refuge in 
1988, while still under the primary jurisdiction of the U.S. Navy. With 
the closure of Naval Air Facility Midway Island in 1993, there began a 
transition in mission at Midway from national defense to wildlife 
conservation. Administration of Midway Atoll was transferred from the 
Navy to the Department of the Interior on October 31, 1996.
    Midway Atoll is best known for its pivotal role in World War II, 
but its historic significance dates back well over a century. In 1903, 
the Commercial Pacific Cable Company constructed five concrete and 
steel structures that housed a community of over 30 people on this 
remote island in the Pacific. The first around-the-world telegram, 
which was issued by President Theodore Roosevelt on July 4, 1903, went 
through the Cable Station at Midway Atoll. Midway Atoll was also a 
landing site for Pan Am Clippers traveling across the Pacific Ocean in 
the late 1930s and today it functions as an emergency landing facility 
for twin-engine jet airplanes traveling across the Pacific. As recently 
as July 2014, a United Airlines Boeing 777 made an emergency landing at 
Midway Atoll with 352 passengers onboard.
    The lives of wildlife and human residents are inexorably 
intertwined on Midway Atoll. It is, in many respects, a little city, 
with all the structures, utilities, and types of equipment that are 
needed to function in support of the resident human community to 
perform the Refuge's mission. At one time, the facilities at Midway 
supported more than 5,000 people. While the current resident population 
is approximately 40, a significant amount of the infrastructure 
existing upon the transfer from the Navy to the Service remains in 
place. The Service works to balance stewardship of the natural 
resources of the Refuge, commemoration of the historic significance of 
the Memorial, and cooperative partnerships for the preservation of both 
to achieve the purposes for which the Refuge and Memorial were 
designated.
   challenges at midway atoll national wildlife refuge and battle of 
                        midway national memorial
    Since 2005, the budget at the Midway Atoll National Wildlife Refuge 
and Battle of Midway National Memorial has been reduced by almost $1.5 
million. Last fiscal year, the operating budget for the refuge was 
$3,692,155, which includes salaries for five full-time Service 
employees, four of whom reside on Midway Atoll. The budget reduction 
resulted in the loss of several Service positions, including the 
permanent Wildlife Biologist, Park Ranger, and Law Enforcement Officer. 
The loss of these positions has affected the Service's ability to 
provide the visitor services program at the Refuge and this program was 
temporarily suspended in November 2013. In the 5 years prior to 
suspending the program, Midway Atoll National Wildlife Refuge welcomed 
on average, a little over 300 visitors annually. Despite the budget 
reductions, the Service has invested in the facilities on the Refuge, 
such as maintenance and minor repair of 109 individual facilities. The 
Service intends to restore the suspended visitor services program once 
funding allows the operation of a safe and sustainable program that is 
appropriate and compatible, pursuant to Service policy and the Refuge 
Improvement Act in accordance with the purposes for which the Refuge 
and Memorial were established.
    Management is challenging on a Refuge where the scarce land is 
subject to wind, water, and changing sea levels. More than 1,000 miles 
from the nearest population center in the main Hawaiian Islands, 
operation of this remote Refuge requires overcoming unique challenges. 
For example, although the Service purchases local goods and services 
found in the main Hawaiian Islands, a good portion of food and project 
supplies inevitably must be transported from the continental United 
States to Hawaii and then to the Refuge. Due to the remoteness of the 
station, all items needed on the Refuge must be shipped long distance 
by air or by boat. The transportation cost is in addition to the cost 
of normal goods and projects, making them ultimately much more 
expensive than those on continental United States. Many projects, 
especially building restoration, require site visits by a potential 
vendor, engineering firm, or a contracting officer. A single barge 
transporting large quantities of materials or equipment to Midway Atoll 
can cost approximately $760,000 per trip.
    Due to its remote location, the costly travel required to reach the 
Refuge, and the limited lodging facilities available, running a visitor 
services program is capacity intensive. Refuge and supporting staff 
stationed on the atoll are minimal for operations. To ensure the safety 
of visitors and a quality visitation experience, the Service would need 
to increase existing capacity. The Service intends to reopen visitor 
services at Midway Atoll when budgets allow for an increase in existing 
capacity.
    The Service has worked to maintain many of the existing historic 
buildings on the Refuge. For example, nine officers' houses that were 
built in 1941 were rehabilitated and restored. Unfortunately, some of 
the buildings that the Service inherited have deteriorated, which can 
present hazards for both wildlife and people. Midway Atoll's harsh 
conditions (salt air, high winds, and unconsolidated substrate, etc.) 
cause buildings to deteriorate much faster than many comparative 
structures in the continental United States. In addition, many 
buildings were constructed and finished with lead-based paint and coral 
sand, and brackish water leading to corroding of the porous concrete 
that has not withstood the test of time.
    Failing buildings and ingestion of the flaking lead paint from 
these buildings can harm wildlife and people. Lead poisoning has caused 
the mortality of approximately 10,000 albatross chicks annually, 
creating a conservation crisis. Beginning in 2011 and each year since, 
the Service has received funding from the Department of the Interior to 
remove lead contamination from soils where it was being ingested by 
albatross chicks and to take long-term action to remove the lead-based 
paint hazards on the Refuge from the highest priority areas. Those were 
identified as the Cable Station compound and the Industrial Complex. 
Among the four remaining Cable Station buildings that were shedding 
lead paint into the surrounding soil, three were removed because they 
were too old, deteriorated, and dangerous to stabilize and maintain. At 
the remaining Cable Station building, the Mess Hall, the Service 
installed a new roof, cleaned and encapsulated lead paint, and 
stabilized the structure. The Service has preserved the Cable Station 
Mess Hall as an example of unique architecture and early history of 
Midway Atoll but it too has deteriorated at a rate and to a state that 
is not sustainable for restoration in the long term. All the Cable 
Station work was done in compliance with the National Historic 
Preservation Act and in consultation with the Hawaii State Historic 
Preservation Division and the Historic Hawaii Foundation. Both the 
Hawaiian State Historic and Preservation Division and Historic Hawaiian 
Foundation have been consulted on the preservation of historic 
resources.
    Current Refuge Manager Dan Clark is a Captain in the U.S. Coast 
Guard Reserve and has served in the active duty and reserve armed 
forces for over 33 years. The Service formally recognizes the Battle of 
Midway every year ceremoniously and honors the sacrifice of those who 
gave all for our freedom. Mr. Clark has reached out to the 
International Midway Memorial Foundation (IMMF) since assuming his 
duties as refuge manager in December 2013 and he and his staff have 
partnered with other veterans' organizations and agencies such as the 
American Battle Memorial Commission (ABMC) to perpetuate the historical 
significance of the Refuge and Memorial. Currently, the Service, 
working with the ABMC, is installing a new monument in honor of the 
Battle of Midway and the role of submariners in WWII. The Service will 
continue to work with the IMMF and other partners to honor the men and 
women who served during the Battle of Midway and at Midway Atoll. The 
Service looks forward to once again hosting the public on-site once the 
visitor services program can be restored.
                               conclusion
    The Service takes our role as trustee for this historic atoll very 
seriously. We will continue to work diligently to balance the natural 
resource stewardship needs of the Refuge while honoring our 
responsibility as custodians of the Battle of Midway National Memorial. 
Mr. Chairman, we appreciate your interest in this issue. We look 
forward to working with the subcommittee.
    Thank you for the opportunity to testify before you today.

                                 ______
                                 

    Mr. Fleming. OK. Thank you, Mr. Foerster.
    Mr. Jordan, you are now recognized for 5 minutes.

   STATEMENT OF CHRIS JORDAN, CHRIS JORDAN PHOTOGRAPHIC ARTS

    Mr. Jordan. Thank you, Chairman Fleming, Ranking Member 
Bordallo, and esteemed committee members.
    My name is Chris Jordan. I am a photographic artist from 
Seattle, and I have had the privilege of visiting Midway eight 
times over the last few years, where I am working on a film and 
a photographic series that is about the albatross that live out 
there.
    And I am proud to tell you that my short film trailer, that 
I hope you will get to see, has been viewed by more than 15 
million people in 154 countries all over the world.
    I first went to Midway to photograph the tragedy of the 
birds whose bodies are filled up with plastic. And there is 
nowhere else on the globe where the troubling problem of ocean 
plastic pollution and marine debris is so viscerally evident 
than it is on Midway Island.
    But I discovered early on that the plastic problem is just 
one small piece of Midway's remarkable story. In addition to 
its rich human history, this is one of the very few wildlife 
habitats on Earth where there has never been a natural 
predator.
    Consequently, the birds on Midway have no fear of humans. 
The albatrosses, petrels, fairy terns, and other birds don't 
fly away when you walk up near them like they do everywhere 
else on our planet. Albatrosses are big and magnificent as 
eagles.
    Imagine walking out into a field of 400,000 of them and 
sitting down amongst them and having crowds of them come up to 
say hello and nibble on your sleeves. It is like being in a 
magical fairyland from a childhood dream, and it is 
transformational to everybody who gets to visit Midway.
    Midway is truly unique, and I am super stoked that it is 
held in American hands. We can honor it in our own way as one 
of the richest and most amazing wildlife habitats on Earth, to 
be held and protected with our deepest love and reverence.
    It feels important to recognize that this island was the 
home of these creatures long before it was named Midway, before 
words even existed, before the first humans walked the Earth. 
For 4 million years, the magnificent albatrosses have been 
dancing their dances and hatching their babies on this remote 
patch of sand in the heart of the world's greatest ocean.
    During my project, I have become closely acquainted with 
the U.S. Fish and Wildlife Service biologists who run the 
island, and they have shared with me many of the issues and 
challenges that they face as Midway's stewards. I found them to 
be smart and capable people who taught me so much about the 
islands, its human history, including the Battle of Midway, and 
its history as a military base turned refuge.
    But, foremost, they taught me about the delicate ecosystem 
and the special skills and care that are needed to ensure the 
safety of the fragile home of more than 3 million birds. I saw 
how they manage with an eye toward preserving and expanding the 
habitat of the albatrosses, petrels, frigatebirds, fairy terns, 
the endangered turtles, monk seals, manta rays, and countless 
other creatures.
    A major part of their work is aimed at minimizing the human 
footprint by controlling invasive plants that entangle or 
suffocate birds and removing nonnative trees that snag and hang 
albatrosses as they try to fly.
    I have watched them tackle challenging projects to remove 
the dangerous and rickety old buildings that leech lead into 
the soils and emit asbestos dust into the air while, at the 
same time, working to preserve the buildings that have 
historical and architectural value.
    I have witnessed the Fish and Wildlife Service slowly shape 
Midway into a one-of-a-kind living monument. New grass grows up 
through the old, unused runways, and where there were once 
roads and concrete foundations and crumbling fuel tanks, now 
there are baby albatrosses in their nests on the newly restored 
sand.
    What more beautiful and effective monument could there be 
to the successful outcome of a world war than a perpetual 
sanctuary of life in the very location where one of its 
greatest battles took place?
    I believe Midway is best served by having Fish and Wildlife 
continue managing the island with adequate funding to bring 
back a limited visitor program. I believe people should be able 
to visit Midway, but only under strictly controlled conditions 
that are not decided in the context of a for-profit business.
    Midway is not a place for jet skis and sunbathers and 
sports fishing boats. It is one of the most special places on 
our planet. It is one spot on the globe where the first 
priority should be the protection and the safety of the wild 
creatures that make this remote island their home.
    I think Fish and Wildlife Service is doing a terrific job 
as Midway's steward. I hope they receive the funding and the 
support to keep right on doing what they are doing.
    Thank you.
    [The prepared statement of Mr. Jordan follows:]
        Prepared Statement of Chris Jordan, Photographic Artist
    Dear members of the Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs, my name is Chris Jordan, and I am a photographic 
artist from Seattle. I have presented my work at schools, universities, 
conferences and gatherings around the globe, and my images are 
published and exhibited worldwide.
    I have had the privilege of visiting Midway Atoll National Wildlife 
Refuge eight times over the last few years, as I worked on an intensive 
photographing and filming project about the albatrosses that live on 
the island.
    My film is not yet finished, but my 4-minute trailer has reached 
more than 15 million people in 154 countries around the world. My 
photographs of albatrosses filled with plastic have reached a global 
audience of hundreds of millions of viewers.
    I first went to Midway to photograph the tragedy of the birds 
filled with plastic. Nowhere else is the global crisis of ocean plastic 
pollution more powerfully evident than on Midway. Unfortunately there 
is nothing that can be done on a local level to solve this tragedy. The 
parent albatrosses range over the entire Pacific in search of food for 
their babies, and it is impossible to clean up such a giant body of 
water. And even if it could be cleaned up, plastic continues to pour in 
from our polluted rivers, and it is also dumped overboard from boats of 
all kinds. In this way, the dead birds on Midway serve as a powerful 
symbol, like the Earth's alarm system going off, an urgent call for 
humans to change our consumptive behavior.
    But I discovered early on that the plastic issue is just one small 
piece of Midway's remarkable story. This is one of the very few 
wildlife habitats on the planet where there has never been a natural 
predator. Consequently, the birds on Midway have no fear of humans. The 
albatrosses, petrels, fairy terns, and other birds, do not fly away 
from us like they do everywhere else. Albatrosses are as big and 
magnificent as eagles; imagine walking out into a field of 400,000 of 
them, and sitting down amongst them, and having crowds of them come up 
to say hello and nibble on your sleeves. It is like being in a magical 
fairyland from a childhood dream. This experience is transformational 
to everyone who visits Midway.
    The only other places in the world where this happens is 
Antarctica, and the Galapagos Islands. The penguins in Antarctica are 
protected by the icy remoteness of the place, and the Galapagos have 
been ruined by tourism. My friends who have been there lately say that 
you get herded down walkways in groups, where you get to look at the 
animals briefly before being herded to the next point. Midway is truly 
unique, and I am super stoked that it is held in American hands. We can 
honor it in our own way, as one of the richest and most amazing 
wildlife habitats on Earth, to be held and protected with our deepest 
love and reverence.
    It feels important to recognize that this island was the home of 
these creatures long before it was named Midway, before words even 
existed, before the first humans walked the Earth. For 4 million years 
the magnificent albatrosses have been dancing their dances and hatching 
their babies on this remote patch of sand in the heart of the world's 
greatest ocean.
    During my project I have become closely acquainted with the U.S. 
Fish & Wildlife Service biologists who run the island, and they have 
shared with me many of the issues and challenges they face as Midway's 
stewards.
    They are smart and capable people who taught me so much about the 
islands, it's human history--including the Battle of Midway, and it's 
history as a military base turned refuge. But foremost they taught me 
about the delicate ecosystem and the special care needed to ensure the 
safety of the fragile home of more than 3 million birds. I saw how they 
manage everything with an eye toward preserving and expanding the 
habitat of the albatrosses, petrels, frigate birds, fairy terns, the 
endangered turtles, monk seals, manta rays, and countless other 
creatures. Their work is aimed at preserving life and its diversity, 
minimizing the human footprint by controlling invasive plants that 
entangle or suffocate nesting birds; and removing invasive trees that 
snag and hang albatrosses as they try to fly. I have seen FWS tackle 
challenging projects to remove the dangerous and rickety old military 
buildings that leach lead into the soils and emit asbestos dust into 
the air.
    I have watched FWS slowly shape Midway into a one-of-a-kind living 
monument. New grass grows up through the old unused runways, and where 
there were once roads and concrete foundations and crumbling fuel 
tanks, now there are baby albatrosses in their nests on the newly 
restored sand. What more beautiful and effective monument could there 
be to the outcome of a world war, than a perpetual sanctuary of life in 
the very location where one of its greatest battles took place?
    I believe Midway is best served by having FWS continue managing the 
island, with adequate funding for a limited visitor program. I believe 
people should be able to visit Midway, but only under strictly 
controlled conditions that are not decided in the context of a for-
profit business.
    Midway is not a place for jet skis and sunbathers and sports 
fishing boats. It is one of the most special places on our planet. It 
is one spot on the globe where the first priority should be the 
protection and safety of the wild creatures that make this remote 
island their home.
    Thank you.

                                 ______
                                 

    Mr. Fleming. Thank you, Mr. Jordan.
    Mr. Daak, you have spent 12 years living on Midway as a 
Navy contractor, an employee of the Midway Phoenix Corporation 
who operated the visitors program from 1996 until 2002. You are 
now recognized for 5 minutes.

              STATEMENT OF MIKE DAAK, HILO, HAWAII

    Mr. Daak. Good morning, Chairman Fleming and members of the 
House Subcommittee on Fisheries, Wildlife, Oceans, and Insular 
Affairs.
    I am Mike Daak. I lived on Midway for about 12 years, first 
as a Navy contractor and then as an employee of Midway Phoenix 
Corporation, serving as the communications department manager.
    I am here representing myself as a concerned witness and 
for many veterans who battled for Midway and protected our 
land, some stationed there, some born there, and many who live 
there.
    In 1996, the Fish and Wildlife Service entered into a 
cooperative agreement with Midway Phoenix Corporation. The 
Wildlife Service agreed to manage wildlife issues, while Midway 
Phoenix agreed to maintain buildings, structures, facilities, 
vehicles on the island, as well as the entire airport at no 
cost to the American taxpayer.
    In turn, Midway Phoenix would earn the opportunity to 
profit from a visitor program and from the sale of fuel to 
ships and planes.
    On paper, the cooperative agreement was followed. In 
practice, the spirit of the cooperative agreement failed 
miserably. With the passage of time, the Wildlife Service made 
increasing restrictions for visitors and residents. Added 
restrictions are listed in my written testimony.
    The cooperative agreement ended on May 1, 2002. The 
agreement did not fail financially. It failed due to a lack of 
cooperation from the Wildlife Service, who was seemingly not 
interested in hosting visitors. It failed due to not having an 
appointed moderator to resolve disagreements between Fish and 
Wildlife and Midway Phoenix.
    The visitor program was operated by the Wildlife Service 
since 2002. They have charged as high as $7,000 per seat on 
their chartered plane. Since Midway Phoenix departed from the 
island, the visitor program has remained closed for 8 of 12 
years.
    After the Wildlife Service spent more than $200,000 for a 
feasibility study to determine if a visitor program would work 
at Midway, they ignored the results and did not appoint an 
alternate cooperator, as they said they were going to do.
    If you fly your plane to Midway, you will be denied 
permission to land, even if you are in a military plane on a 
military mission. If you sail your sailboat to Midway, you will 
be declined permission to enter the harbor.
    Regarding island stewardship and historic significance, for 
anyone who has viewed recent pictures of the island, the photos 
speak for themselves. Six historic buildings were demolished so 
far without required input from the general public.
    The Wildlife Service stated they have $160 million 
maintenance backlog. We believe this money is for additional 
demolition. The Wildlife Service stated they will only be 
maintaining buildings that they can use, regardless of their 
historic significance.
    The Wildlife Service demolition plan includes the fuel 
farm, which was the main profit center and crucial for an 
affordable visitor program. The Wildlife Service deselected 
nine major buildings from their maintenance program. They are 
listed in my written testimony. Buildings are being demolished 
that could be used to support an affordable visitor program.
    Over the past 12 years, the Wildlife Service has spent 
millions upon millions to maintain the island. This money was 
spent for services they were getting for free from Midway 
Phoenix. Buildings that were once used to support a visitor 
program are now abandoned. Some have referred to this as 
demolition by neglect. Buildings are first abandoned, later 
deemed as unsafe, then become eligible for demolition.
    The Wildlife Service claimed they had no need for an 
airport at their refuge. This required the FAA to station five 
full-time employees to keep the airport open. Meanwhile, the 
Wildlife Service remains the primary user of the airfield.
    My recommendations: Midway does not need more millions of 
taxpayer dollars for more of the same. Midway needs limited 
enterprise to enable the island to be self-sustaining. The 
refuge manager stated he had a list of cooperators as long as 
his arm who were ready to take the place of Midway Phoenix. 
Where are they?
    A new cooperative agreement should be appointed to operate 
an affordable visitor program. A new agreement would work if it 
were moderated by any of the following entities: the U.S. Coast 
Guard, the National Park Service, the U.S. Navy, the FAA, the 
International Midway Memorial Foundation.
    Last, I recommend Midway be reverted to an overlay refuge, 
as it was when the Navy was there. I recommend the Fish and 
Wildlife Service manage wildlife and nothing else.
    Mr. Fleming. Is that the conclusion?
    Mr. Daak. Yes.
    [The prepared statement of Mr. Daak follows:]
   Prepared Statement of Mike Daak, 12-Year Resident of Midway Island
    My name is Mike Daak. I am here representing myself, as a concerned 
witness, and for veterans who battled for Midway and protected our 
land--some stationed there, some born there and many who lived there.
    I lived on Midway for about 12 years, first as a Navy Contractor, 
for about 6 years, then for another 6 years as an employee of Midway 
Phoenix Corporation. As an employee of Midway Phoenix, I held the title 
of Communications Department Manager. I maintain a Web site dedicated 
to Midway Island, at http://www.midway-island.com/. I also produced the 
video, ``Midway Island--A Battle Lost to the U.S. Fish and Wildlife 
Service''. This 22-minute video can be viewed on-line at: http://
vimeo.com/80519456.
                               background
6/4/1999, Naval Administrative Message--http://www.history.navy.mil/
commemorations/midway/midway-1b.htm

    Navy Admiral Jay L. Johnson--``After considerable deliberation, it 
is apparent that the two most significant dates in our Naval history 
are 13 October 1775, the birth of our Navy, and 4 June 1942, the Battle 
of Midway.. . . These two prominent days will henceforth be celebrated 
annually as the centerpieces of our heritage.''
    In 1996, administration of the atoll was transferred from the Navy 
to the Fish and Wildlife Service (FWS) through an Executive Order, 
which also established the Midway Atoll National Wildlife Refuge. The 
Executive Order stated that FWS ``shall recognize and maintain the 
historic significance of the Midway Islands consistent with the policy 
stated in Executive Order 11593 of 1971.'' Since 1996, it has become 
apparent that the FWS has mostly fixated on wildlife only issues.
    In 2006, President George W. Bush designated Midway as a 
Northwestern Hawaiian Islands Marine National Monument. In 2009 it was 
later renamed as the Papahanaumokuakea Marine National Monument. Midway 
is also a Battle of Midway National Memorial. Recently, the island was 
inscribed as part of a larger UNESCO World Heritage Site.
    Midway has been called the `door', `the window' and the `hub' of 
the Monument. However, the door is being kept closed by the FWS to all 
visitors--to all taxpayers who financially support the island. Over the 
course of a year, approximately 150 people had visited the island, when 
their Visitor Program was open generally in groups of 10 or 15 at a 
time. FWS has charged as much as $7,000 per seat for the trip to 
Midway. Often, visitors were expected to pull weeds or do other work 
duties while on-island.
               fws purpose on midway--in their own words
    ``The purposes of the refuge are to maintain and restore natural 
biological diversity within the refuge; provide for the conservation 
and management of fish and wildlife and their habitats within the 
refuge; fulfill the international treaty obligations of the United 
States with respect to fish and wildlife; provide opportunities for 
scientific research, environmental education and compatible wildlife 
dependent recreational activities; and, in a manner compatible with 
refuge purposes, recognize and maintain Midway's historic 
significance.. . . It also serves as the `window to the Monument,' the 
only site open to public visitation.''
                         cooperative agreement
    The FWS was never expected to be capable of managing all the 
facilities of the entire island. Midway includes everything you'd find 
in a small city. There are more than 555 Wildlife Refuges across our 
Nation, but none include an airport, a hotel a restaurant, a store, a 
bar, a water treatment plant, a fuel farm, a sport fishing operation, a 
diving operation, an airline service or a tourist program.
    FWS had intended to farm out those type services to a third party--
thus was born the Cooperative Agreement. In addition, a Refuge Manager 
once told me that it was illegal for FWS to earn a profit. The plan was 
for one Cooperator to run all non-wildlife functions of the island, in 
trade earning potential profits from all profit sources on Midway. 
Wildlife Refuges should only manage wildlife issues since that is what 
they are best at doing. Profit margins are alien to the FWS.
    The Cooperative Agreement was a first of its kind, intended to 
outline the duties of FWS and their chosen Cooperative Contractor. The 
Agreement was intended to be a `living document'; changes were expected 
to be made with the passage of time.
    In 1996, FWS entered into a Cooperative Agreement with the Midway 
Phoenix Corporation (MPC) for the operation of a Visitor Program at 
Midway. On paper, the Cooperative Agreement was being followed. In 
practice, the spirit of the Cooperative Agreement began to fail 
miserably, especially toward the very end of its 6-year term.
    After MPC signed the Cooperative Agreement, they invested 
approximately $15 million of their own money toward improvements in 
preparation for hosting the new visitor program.
  mpc paid for the following buildings/structures/equipment, without 
                             taxpayer money

    <bullet> Converted military barracks to hotel room standards

    <bullet> New Clipper House restaurant on the beach

    <bullet> New Captain Brooks beach bar

    <bullet> Stationed two on-island aircraft for visitor and resident 
            transport

    <bullet> Purchased a ship for logistical support of the island

    <bullet> New Sewage Treatment Plant

    <bullet> Chartered semi-weekly flights of an Aloha Airlines jet

    <bullet> New Bottled Water facility

    <bullet> New Hydroponics facility

    <bullet> New Garden, to provide fresh produce for the island

    <bullet> The island's first Cellular Phone System

    <bullet> New Harbor Office building

    <bullet> New Sport Fishing building

    <bullet> New Sport Diving building

    <bullet> Purchased two 35-foot Fishing Boats and two smaller 
            Fishing Boats

    <bullet> Purchased a 48 Diving Boat

    The Cooperative Agreement authorized 100 visitors per week to the 
island. Midway has natural and historic resources that enable the 
island to be self-sustaining, via a properly managed Visitor Program. 
MPC operated the Visitor Program at near no cost to the American 
Taxpayer. The Visitor Program included Historical Tours, Wildlife 
Tours, Sport Diving and catch & release Sport Fishing Trips. The 
Cooperative Agreement was intended to allow FWS to focus on wildlife 
issues, while allowing MPC to focus on the Visitor Program so the 
island could pay its own way.
                        new restrictions by fws
    With the passage of time, FWS placed more and more restrictions on 
visitors and residents.
Additional Restrictions

    <bullet> Requested MPC to stop mowing of grass in housing and 
            populated areas.

    <bullet> Added signs to further restrict the movement of people.

    <bullet> Large sections of the island became off-limits with 
            sightings of seals, turtles and birds.

    <bullet> Terminated permission for use of kayaks from all 
            shorelines, stating that the oars might hit a turtle.

    <bullet> Terminated permission for use of small recreational 
            sailboats, for all waters around the entire island.

    <bullet> Terminated permission for use of wind surfing equipment.

    <bullet> Tried to restrict MPC from using the word `Island' on 
            items sold in the gift store and insisted the word `Atoll' 
            be added in its place.

    <bullet> Added new restrictions for residents, regarding the 
            catching of fish, lobster and for scuba diving.

    FWS elected to kill all Ironwood trees on Eastern and Sand Island 
via their 7-year Tree Removal Plan. ALL trees were killed on Eastern 
Island--the island was totally flattened. Dead trees were left 
standing, which snared and killed many Albatrosses. FWS paused with 
their tree-killing program on Sand Island, after hearing public 
complaints. The Ironwood trees were considered non-indigenous. As info, 
Ironwood trees are found on most inhabited Pacific islands, their seeds 
floating on top the ocean.
           end of cooperative agreement with mpc--may 1, 2002
    The Cooperative Agreement did not fail financially. It failed due 
to a lack of cooperation from the FWS who seemingly was not interested 
in hosting visitors.
    It failed due to not having an appointed moderator to resolve 
disagreements between FWS and MPC.

March 31, 2002, The New York Times, by John H. Cushman Jr.--http://
www.nytimes.com/2002/03/31/travel/travel-adivsory-correspondent-s-
report-tourism-venture-ends-midway-atoll-refuge.html

    ``Barbara Maxfield, a spokeswoman for the Interior Department, said 
it had not been satisfied with the company's performance in maintaining 
the refuge's property, ensuring the safety of tourists, and protecting 
the frail resources of the atoll. By law, the wildlife agency's main 
objective in managing its reserves is conservation.''

February 4, 2002, Honolulu Star Bulletin, by Mitch Stacy, Associated 
Press--http://archives.starbulletin.com/2002/02/04/news/story5.html

    Bob Tracey, Midway Phoenix Corporation--``Midway Phoenix has lost 
at least $15 million on the island, Tracey said. Strict Fish and 
Wildlife Service restrictions on where visitors can go and what they 
are allowed to do have made it difficult to operate as advertised, he 
said. ``With this level of extremism with Fish and Wildlife, it's 
difficult to make a profit out there under that regime,'' Tracey said. 
``We're exhausted fighting the war. The situation is especially hard to 
take, he said, because under the government contract, Midway Phoenix 
pays the salaries of Fish and Wildlife officers who maintain the refuge 
and also flies them and their families back and forth to Honolulu.''
         visitor program--after mpc departed the island in 2002
    The FWS has stated that the only reason the visitor program is not 
open is due to a lack of funding. Again I will mention the 2005 
Feasibility Study that concluded in recommending an alternate 
Cooperator be appointed.

February 2, 2002, Honolulu Advertiser Newspaper Article, by Jan 
TenBruggencate--http://the.honoluluadvertiser.com/article/2002/Feb/02/
ln/ln05a.html

    Midway Refuge Manager (1997-2000) Rob Shallenberger--``The agency 
will find another operator or multiple operators to run facilities if 
Midway Phoenix leaves . . .''

April 30, 2002, Honolulu Advertiser Newspaper Article, by Jan 
TenBruggencate--http://the.honoluluadvertiser.com/article/2002/Apr/30/
ln/ln33a.html

    Assistant Secretary of Interior, Craig Manson--``Although we are 
not in a position at this time to reopen our doors to visitors, we hope 
to be able to do so in the future,'' said Craig Manson, Assistant 
Secretary of the Department of Interior for Fish and Wildlife and 
Parks.

May 6, 2002, Honolulu Star Bulletin, By Gregg K. Kakesako--http://
the.honoluluadvertiser.com/article/2002/May/24/ln/ln13a.html

    Assistant Secretary of Interior, Craig Manson--``The Department of 
the Interior is fully committed to restoring public access to Midway.''

May 26, 2003, The Washington Times, by Audrey Hudson--http://
www.washingtontimes.com/news/2002/may/26/20020526-025453-2237r/

    Rep. John J. Duncan Jr., Tennessee Republican--``Having a wildlife 
refuge or a national memorial that only bureaucrats can visit does not 
make a whole lot of sense,'' Mr. Duncan said. ``I think the veterans 
who fought in the Battle of Midway deserve to be treated better by the 
Fish and Wildlife Service,'' Mr. Duncan said.

February 7, 2006, Posting on FWS Web Site Visitor Services Planning 
Underway

    ``Refuge staff, with assistance from two Honolulu-based FWS staff, 
set aside a week in early January to embark on Midway Atoll NWR's long-
awaited Visitor Services Plan, the next step toward enhancing the 
visitor program on the atoll.''
                visitor program feasibility study--2005
    In 2005 the FWS spent more than $200,000 for a Feasibility Study, 
to determine if a Visitor Program were feasible at Midway. The study 
provided proof and offered examples of how a Visitor Program would work 
via an alternate Cooperative Agreement with a new Cooperative 
Contractor. The FWS elected to ignore the recommendations of that 
report and did not select an alternate Cooperator to run a Visitor 
Program, as stated in 2002.
FWS Visitor Program Closed--In Their Own Words
        ``Midway's remote location and the high cost of fuel and 
        chartering aircraft make it an expensive place to visit. The 
        Fish and Wildlife Service has investigated several 
        administrative and logistical management options related to 
        administering reservations, cancellations and collection of 
        money, including on-site management of independent travel 
        groups. It has been determined that it would not be possible to 
        advertise, manage reservations and cancellations and respond to 
        travel requests, in addition to developing and investigating a 
        legal mechanism for collection of money, without an additional 
        full-time staff person dedicated to visitor services 
        management. The current budget climate does not allow for this 
        additional staff.''

    I have been witness to FWS methods for the past 26 years. I've 
witnessed their actions don't always match their words. As an example, 
they're planning to install an electrical power generator that is much 
smaller in size than the one they're now using. ``If'' they were 
actually planning to once again host an Affordable Visitor Program, 
they'd be gearing upward, not downsizing.
    All private, commercial and otherwise, aircraft are banned from 
landing on Midway, unless it's an emergency; this includes all military 
aircraft. Only emergency landings are allowable. Ocean access to Midway 
is completely unavailable, including access in an emergency. Midway 
airport is completely closed! Per AirNav.com--``APT CLOSED TO ALL 
TRANSIENT ACFT. APT OPEN FOR ETOPS AND APPROVED ACFT OPNS ONLY''
    I witnessed an aircraft on a military mission, being denied 
permission to land at Midway; FWS stated it would interfere with their 
Halloween Party. Recently, a sailboat was denied permission to enter 
the safe harbor at Midway, even though declaring an emergency; their 
water-making system was no longer working. The FWS decided it was best 
to take fresh water out to the sailboat, to keep the boat away from the 
island.
    FWS continues to try and lead the public into believing they want a 
visitor program. They have claimed their Visitor Program was open on a 
weekly basis from 2008 until 2012: this claim is not entirely true, 
confirmed by media articles of that time period. FWS would claim they 
were open for public visitation but were charging as much as $7,000 per 
seat for airfare and requiring the visitors to work or pull weeds while 
on the island. One year, the FWS claimed they were open for visitors 
when in fact they had only hosted a few hundred visitors from a cruise 
ship for a few hours.
    From May 1, 2002 till 2008, the Visitor Program was mostly closed--
6 years. Since MPC departed from the island the Visitor Program has 
been closed for about 8 of the 12 years.
                           island stewardship
    Anyone who has viewed recent pictures of the island, the photos 
speak for themselves. The Report Card for FWS stewardship is there for 
all to see. http://vimeo.com/80519456
    Since 2002 when MPC made their exit from the island, the FWS has 
been responsible for stewardship and contracted with Chugach McKinley 
to maintain the island. The FWS stated in writing, they would only 
maintain buildings and structures they can ``use,'' regardless of their 
historic significance.
    Prior to Midway being transferred from the Navy to the FWS, 111 
buildings and structures were demolished. Per FWS, these buildings and 
structures were demolished for the purpose of ``right-sizing'' to the 
needs of FWS for the new mission as a Wildlife Refuge with a Visitor 
Program. Ninety-six buildings and structures were left standing for FWS 
to use and maintain in support of a Visitor Program.
    The FWS continues to demolish buildings that could be used to 
support an Affordable Visitor Program. In their words, they are still 
``right-sizing.'' FWS stated in writing, they have a $160 million 
``Maintenance Backlog.'' We firmly believe that the majority of the 
``Maintenance Backlog'' money is for the demolition of buildings that 
have been marked as ``Abandoned'' over the past 12 years. Buildings 
that were once used to support an Affordable Visitor Program are now 
being abandoned. Some have referred to this as ``Demolition by 
Neglect.'' First the building is abandoned and then deemed as unsafe, 
making it eligible for demolition.
   fws contract with chugach: no maintenance plan for the following 
                               buildings
The Main Galley: Abandoned--Scheduled for demolition.

        Properly maintained and managed, the Main Galley would support 
        a Visitor Program.

The Main Hangar: Abandoned--Scheduled for demolition.

        Properly maintained and managed, the Main Hangar to serve as 
        building/office space for support of an active Visitor Program.

The Historical SAR Hangar: Abandoned--Scheduled for demolition.

        FWS stated that they have no plan to maintain the Historic Sea 
        Plane Hangar and have referred to it as ``an abandoned ruin.''

The Historic Station Theater: No Maintenance Plan.

        The Station Theater has a hole in the roof. Rather than repair 
        the hole, the FWS has elected to abandon the building. They 
        also removed historical murals from the walls of the Station 
        Theater and sent them to Ford Island for storage, an indicator 
        of their inability or interest to maintain historical 
        structures.

BOQB Living Quarters: Abandoned--Scheduled for demolition.

        Properly maintained, this building would serve to house Midway 
        visitors.

BEQB Living Quarters: Abandoned--Scheduled for demolition.

        Properly maintained, this building would serve to house Midway 
        employees, who serve to support an active Visitor Program.

BEQC Living Quarters: Abandoned--Scheduled for demolition.

        Properly maintained, this building would serve to house Midway 
        employees, who serve to support an active Visitor Program.

The All Hands Club: May soon close its doors for good.

The Main Fuel Farm: Abandoned--Scheduled for demolition in 2016.

        Properly maintained and managed the Fuel Farm is a main source 
        of revenue off-setting the operational costs of running the 
        island. Two large tanks, each holding 2 million gallons, are 
        scheduled for demolition. These large tanks are being replaced 
        with smaller/portable tanks, with a total capacity of about 
        450,000 gallons.

    FWS has verbally stated that they have no plans to demolish 
additional structures, such as the Fuel Farm. However, we hold a 122-
page document clearly confirming the demolition schedule as being right 
on time. This includes the Fuel Farm scheduled for demolition in 2016. 
The Fuel Farm is key to a successful and Affordable Visitor Program. 
Fuel sales to transient aircraft and ships were the number one profit 
source, while MPC was on-island. Every dollar that is earned from Fuel 
Sales becomes one less dollar of burden for the American Taxpayer.
Abandoned Airfield
    The FWS abandoned the airfield at Midway claiming they had no need 
for an airport at the wildlife refuge. This required the FAA to station 
five full-time employees to the island to manage the airport. At the 
same time the FWS is the primary entity currently using the airport for 
scheduled logistical flights. The airport is otherwise only open for 
Transpacific aircraft that declare an emergency.

Costs of the Airfield on Midway Island--https://www.oig.dot.gov/sites/
default/files/midway-Final.pdf

    ``For the 15-month period of January 2004 through March 2005, there 
were 136 aircraft landings at Midway airfield, one of which was an 
emergency landing for a commercial airline. FWS is the primary user of 
the airport and regularly flies staff, volunteers, and supplies to 
support its refuge mission activities.''

March 16, 2002, Article in The Washington Times, by Audrey Hudson--
http://www.washingtontimes.com/news/2002/mar/16/20020316-041107-4551r/

    FWS Spokesperson, Mark Pfeifle--``We will implement a transition 
strategy to preserve the condition of the facilities and ensure the 
continued conservation of Midway's fish, wildlife and historical 
resources,'' said spokesman Mark Pfeifle. ``The agency is looking for 
another private company to resume the operations on the island. The 
Fish and Wildlife Service will use its own funds until another 
corporate sponsor can be recruited.''
demolition by fws--historic buildings demolished without input from the 
                             general public

    <bullet> Four of the five Historic Cable Station buildings were 
            demolished in 2013

    <bullet> Two Historic Marine Barrack buildings were demolished in 
            2013

    <bullet> SKI Warehouse was demolished in 2013

    <bullet> Demolition Schedule--Removal Action Work Plan: Web Link, 
            130 Page PDF Document--http://www.fws.gov/uploadedFiles/
            Region_1/NWRS/Zone_1/Midway_Atoll/Documents/
            AR0062%20Midway%20RAWP%20FINAL.pdf

                 restoration/renovating projects by fws

Web Link--Photos of Remodeled Homes--http://recovery.doi.gov/press/us-
fish-and-wildlife-service/midway-atoll- percent20national-wildlife-
refuge/

    To their credit, FWS managed to rally for a $1.6 Million American 
Recovery and Reinvestment Act (ARRA) grant, for major remodeling of 
Officers' Row of housing. Worth noting, these homes are occupied by 
residents of Midway. As FWS stated, they are only interested in 
maintaining buildings they can ``use,'' seemingly without regard to 
historical significance.

Cable Station Buildings--One of five Cable Station buildings was 
partially restored.

    Web Link of Restored Cable Station Building--http://www.midway-
island.com/documentation/cable-station-one-restored-building/
                           midway fuel spill
    In February of 2003, the FWS was responsible for the largest fuel 
spill in recorded history for the entire Hawaiian archipelago. It was 
reported, between 75,000 and 100,000 gallons of fuel were spilled at 
Midway costing millions to clean up. When MPC was on-island, five full-
time employees manned the Fuel Farm. After MPC departed from the island 
the Fuel Farm was manned by one part-time employee.
    The former MPC Fuel Farm Manager stated that five valves would have 
to have been left pressurized long-term for the leak to occur where it 
did.
                        spending/taxpayer costs
    Over the past 12 years, the FWS has spent millions upon millions of 
dollars to maintain the island. This money was spent for services they 
were getting for FREE by the previous Cooperator, Midway Phoenix while 
operating an Affordable Visitor Program.
                            recommendations
    More than 12 years ago, the FWS Refuge Manager stated, at our 
weekly managers meeting, he had a list of alternate Cooperators who 
were standing by, ready and eager to take the place of MPC. Where are 
they, where is even one?
    I recommend an immediate stop to the demolition of the fuel tanks 
and for maintenance and repairs to be immediately done before all hope 
of a visitor program is stripped away by the FWS through their 
maintenance neglect. The Fuel Farm is crucial piece of an Affordable 
Visitor Program.
    I would also recommend that the FWS be required to maintain 
abandoned buildings, using a fair portion of their wildlife money 
toward repair and restoration of abandoned structures. I would 
recommend they be required to include an equal number of volunteers for 
historical buildings at Midway as they now have for their favorite 
wildlife projects. I would also recommend that the IMMF be empowered to 
monitor volunteer members, so that historic preservation can be 
accounted for. A watchdog needs to be appointed.
    I would also recommend that the airport be reopened to the public. 
Fuel sales at Midway would reduce the operational cost of the island 
and offset the cost for an Affordable Visitor Program.
    In order for a new Cooperative Agreement to work, it would need to 
be moderated by any of the following entities: the U.S. Coast Guard, 
the National Park Service, the U.S. Navy, the FAA, and the 
International Midway Memorial Foundation. FWS and the new Cooperator 
could present their disagreements to a panel of third party Mediators, 
to resolve disputed issues.
    I recommend that Midway be reverted to an Overlay Refuge, as it was 
when the Navy was still on-island, and the FWS only manage the 
wildlife, nothing else. It's been 26 years since FWS assumed 
responsibility for the island. If they have not yet figured it out by 
now, they never will.
    Midway Island does not need a name change. The battle was fought as 
the Battle of Midway Island. Birth certificates do not say Midway 
Atoll, but Midway Island. Veterans, and all those who cherish Midway 
know this tiny dot of land as Midway Island, not Midway Atoll. We must 
honor those who fought and remember the island as ``Midway Island.''
    Midway does not need millions upon millions of government handout 
money for more of the same. Midway needs limited enterprise to help 
this historical island be self-sufficient. Midway has natural and 
historic resources that enable the island to be self-sustaining, via a 
properly managed and Affordable Visitor Program.
    It is clear to the majority that the FWS remains fixated on 
wildlife-only issues. Today, Midway is seemingly a sinking ship where 
the distress alarm has NOT been very loud or clear.
                        notes and documentation
Media Quotes

April 12, 2009, 2nd Battle of Midway apparently lost--http://
www.redstate.com/diary/innocbystr/2009/04/12/2nd-battle-of-midway-
apparently lost/

    In 1999, in recognition of the atoll's historical significance, 
Congress directed the Secretary of the Interior to develop Midway as a 
National Memorial and establish a preservation program for its historic 
military buildings and gun emplacements. This was to include 
interpretative displays and promotion of tourist visits.

February 4, 2002, Honolulu Star Bulletin, by Mitch Stacy, Associated 
Press,
U.S. Coast Guard Statement--http://archives.starbulletin.com/2002/02/
04/news/story5.html

    It is a situation that concerns the Coast Guard, which depends on 
the island as a refueling stop during law enforcement and rescue 
operations. ``If I don't have Midway, that area gets a little bit 
bigger,'' said Capt. Steven Newell, the Coast Guard's chief of the 
expansive North Pacific district.

June 4, 2012, Battle of Midway Memorial Handout Brochure--http://
www.papahanaumokuakea.gov/pdf/midway_q_and_a_brochure.pdf
                         other useful web sites

My Midway Island Web Site

    http://www.midway-island.com/

Battle of Midway Ceremony--2012 Brochure

    http://www.papahanaumokuakea.gov/pdf/midway_q_and_a_brochure.pdf

Midway Island Fee Schedule

    http://www.fws.gov/uploadedFiles/Region_1/NWRS/Zone_1/Midway_Atoll/
Documents/Midway%20Fee_Schedule%20Rev.%205-5-2014.pdf

Before/After Photos of Midway Island

    http://www.midway-island.com/bird-photos/before-and-after/

Midway Island--A Battle Lost to USFWS

    http://vimeo.com/80519456

                                 ______
                                 

    Mr. Fleming. OK. Thank you for that, Mr. Daak.
    And next, Dr. James D'Angelo, Chairman of the International 
Midway Memorial Foundation.

STATEMENT OF JAMES M. D'ANGELO, Ph.D., USAF RETIRED, CHAIRMAN, 
            INTERNATIONAL MIDWAY MEMORIAL FOUNDATION

    Mr. D'Angelo. Good morning, Chairman Fleming and Members--
--
    Mr. Fleming. Sir, you will need to pull the microphone 
close to your mouth.
    Mr. D'Angelo. Good morning, Chairman Fleming and members of 
the House Subcommittee on Fisheries, Wildlife, Oceans, and 
Insular Affairs.
    I am Dr. James D'Angelo, Chairman and Founder of the 
International Midway Memorial Foundation, which is dedicated to 
the memory of the Battle of Midway.
    The Battle of Midway, which took place from June 3-7, 1942, 
was a battle of historic proportions and was not only the 
turning point of World War II in the Pacific, but affected the 
outcome of World War II in Europe.
    In 1999, the designation of Midway as a national memorial 
was signed into law by President Bill Clinton. Midway deserves 
to be memorialized throughout time by mandating a permanent 
policy of public visitation to the atoll.
    In the 1999 legislation, the Secretary of Interior was 
directed to regularly consult with the IMMF on the management 
of the National Memorial. To date, neither the Wildlife Service 
nor the Department of the Interior has carried out this 
directive.
    In 1996, Midway Phoenix and Fish and Wildlife entered into 
a cooperative agreement to provide all logistic and 
administrative services on the atoll at little expense to the 
taxpayers.
    Midway Phoenix left Midway in 2002 after a dispute by Fish 
and Wildlife's demand that Midway Phoenix pay $2 million for 
aviation fuel that was gifted to Midway Phoenix in 1996.
    In 2003, after the departure of Midway Phoenix, Chugach, a 
private-sector company based in Alaska, took over the 
responsibility of maintaining Midway's infrastructure. The cost 
of operating Midway rose exponentially, all of which was borne 
by the taxpayers.
    In 2003, the IMMF submitted its feasibility study on a 
public visitation program at Midway. In 2005, Fish and Wildlife 
spent $200,000 for a study to determine the feasibility of 
reinitiating a public visitors program on Midway.
    Both studies concluded that a public visitation program 
would be most viable if a private contractor was utilized to 
maintain the entire infrastructure on Midway, as well as to 
administer the public visitation program. Both were ignored by 
Interior and Fish and Wildlife.
    Private-sector management of a public visitation program 
was successfully demonstrated in the last year of Midway 
Phoenix's tenure when it made a profit of $26,138, despite the 
restrictions placed on it by the Fish and Wildlife Service.
    The following are examples of failures that have occurred 
under Fish and Wildlife's watch:
    In February 2003, nearly 100,000 gallons of fuel leaked 
from the fuel farm, which was being manned by only one part-
time employee. Cleanup was estimated to have cost taxpayers 
millions of dollars.
    The Fish and Wildlife Service demolished historic 
structures on Midway without any notification of such plans to 
the IMMF, as directed by law.
    The Fish and Wildlife Service is also planning the total 
destruction of all the buildings and structures on Midway. And 
we have attachments that document that from their own brochure.
    The atoll remains closed to public visitation for the 
foreseeable future, a condition facilitated, in part, by the 
elimination of profit-making aviation fuel sales to commercial 
and military aircraft; the planned destruction of two large 
fuel tanks in 2016, which will limit the potential for profit-
making fuel sales; and by the deterioration and demolition of 
structures which would support public visitation.
    The measures Fish and Wildlife have taken in the 
administration and operation of Midway since 2002 have only 
served the interest of Fish and Wildlife with little regard for 
public visitation or for Midway's historic value.
    To rectify these problems, on behalf of the IMMF, I am 
recommending that a permanent advisory board of governors be 
created that would include Fish and Wildlife, the National Park 
Service, the U.S. Coast Guard, the Navy, FAA, the IMMF, and a 
private contractor operating Midway.
    The president of the board would be rotated annually from 
each of its members, except for a private contractor, and an 
annual audit would be performed and reported to the Secretary 
of Interior.
    This would allow for a viable management solution that 
meets the needs and addresses the concern of all who have an 
interest in the future of Midway Atoll.
    I want to thank the committee for the opportunity to 
testify and express the hope that Midway Atoll National 
Memorial and public visitation will receive the proper 
management and attention they all deserve.

    Thank you.

    [The prepared statement of Mr. D'Angelo follows:]

 Prepared Statement of James M. D'Angelo, M.D., USAF Veteran, Chairman 
      and Founder of the International Midway Memorial Foundation

    The International Midway Memorial Foundation (IMMF) is a non-
profit, tax-exempt corporation, established in the state of Maryland in 
1992, and is dedicated to the memory of the Battle of Midway.

                         historical perspective

    The Battle of Midway, which took place from June 3-7, 1942, was a 
battle of historic proportions and the turning point of World War II in 
the Pacific. After the Battle of Midway, Japan was never able to go on 
the offensive again. Admiral Isoroku Yamamoto's decision to include the 
islands of Midway in his strategic plan against the United States was 
flawed and thus paved the way to a U.S. victory. Historians now believe 
that the victory at Midway had significant effects on the outcome of 
World War II in Europe:

    <bullet> It allowed the United States to take its first offensive--
            that of invading North Africa--which ultimately resulted in 
            the destruction of the German African Corps;

    <bullet> Japan's defeat meant that Russia was able to transfer its 
            troops from Manchuria to the east to bolster the defense of 
            Stalingrad against German forces; and

    <bullet> It guaranteed the timetable for the Allied invasion of 
            Normandy.

    For these reasons alone, Midway should have a functioning National 
Memorial and public visitation. But beyond its significance in the 
course of historical events, the Battle of Midway represents the 
courage, determination and sacrifice of the men who fought to retain 
Midway, and deserves to be memorialized throughout time by preserving 
Midway's history and by mandating a permanent policy of public 
visitation to the Atoll.

                 jurisdiction (u.s. navy and the usfws)

    In 1996, jurisdiction over the Midway Atoll was transferred by the 
U.S. Navy to the U.S. Fish and Wildlife Service (USFWS). The IMMF 
encouraged Congress to designate the Midway Atoll as a National 
Memorial and its efforts were rewarded in November 2000 when President 
Clinton signed legislation that designated the Midway Atoll as a 
National Memorial. In that legislation the Secretary of Interior was 
directed to regularly consult with the IMMF on the management of the 
National Memorial. To date, neither the USFWS nor the Department of 
Interior has regularly consulted with the IMMF on the management of the 
National Memorial.

                  usfws and midway phoenix corporation

    In 1996, Midway Phoenix Corporation (MPC) and the USFWS entered 
into a cooperative agreement for MPC to provide all logistic and 
administrative services on the Atoll at no expense to taxpayers. Only 
USFWS' room, board and mission activities were paid by the taxpayer.

    From 1996-2002, MPC faithfully carried out this agreement in spite 
of Draconian restrictions placed on its activities by USFWS. Examples 
of such measures were the closing of Eastern Island to the public (the 
site where the original airstrip is located), transferring endangered 
Hawaiian Monk seals to the shores of Midway Atoll which resulted in the 
closing of all heretofore public beaches, limiting cruise ships' access 
to Midway Atoll and limiting the sale of aviation fuel by MPC. The 
primary reason why MPC departed from Midway in 2002 was over the issue 
of aviation fuel. In 1996, when the U.S. Navy transitioned from Midway, 
it gave the remaining fuel in the tanks to the USFWS. In 1997, the 
remaining fuel was gifted to MPC because USFWS was not permitted to 
make a profit from the Wildlife Refuge. MPC then sold the fuel to 
transient aircraft at approximately $5.00 a gallon. By 2002, MPC had 
invested $15 million of its own money toward improving the 
infrastructure of the Atoll. With 1 month's supply of fuel remaining, 
USFWS demanded that MPC pay $2 million for the aviation fuel that had 
been gifted to MPC in 1997. This non-negotiable and inexplicable action 
by the USFWS prompted MPC to leave Midway.

               usfws financial management of midway atoll

    As previously stated, during the tenure of MPC's administration of 
Midway Atoll, all logistic and administrative operations were carried 
out on Midway at no expense to taxpayers. In 2003, after the departure 
of MPC, Chugach, a private sector company based in Alaska, took over 
the responsibility of maintaining Midway's infrastructure. The cost of 
operating Midway rose exponentially, all of which was borne by the 
taxpayers.

    The IMMF obtained information about the financial expenditures by 
USFWS from two sources, the Interior Department Electronic Acquisition 
System (see Attachment 1), and the Division of Congressional and 
Legislative Affairs (DCLA) (see Attachment 2). The following data was 
acquired from IDEAS. In 2003, USFWS paid Chugach $24,439,634. In 2004, 
this amount increased to $86,376,374. In 2005, USFWS paid $75,995,693 
to Chugach. According to IDEAS, the total paid to Chugach by USFWS for 
the 3-year period was $186,811,701.

    According to the report from DCLA, USFWS' Midway operating expenses 
from 2005-2013 varied from $4,007,884 to $4,781,505. For 2005, however, 
there is a striking discrepancy between the two sources of the 
expenditures by USFWS at Midway. As noted above, the IDEAS report 
indicates the expenses to Chugach were $75,995,693, but the report from 
the DCLA states USFWS Midway costs were $4,553,693. The difference of 
the two reported values requires further investigation (there was no 
data from DCLA for the 2003-2004 period). In conclusion, the minimal 
cost to taxpayers of MPC's administration of all operations on Midway 
rose to millions of dollars under USFWS/Chugach.

 decline and cessation of midway's public visitation policy (2002-2014)

    In the aftermath of MPC's departure, public visitation to Midway 
between the years 2002-2013 was allowed on a part-time basis in only 4 
years out of the 12-year period. In 2013, public visitation ceased.

    On January 8, 2003, the IMMF submitted its feasibility study 
(Submitted for the Record) on a public visitation program. The study 
concluded that a public visitation program was most viable if a private 
contractor was utilized to maintain the entire infrastructure on Midway 
as well as to administer the public visitation program. The study was 
ignored by Interior and the USFWS.

    In 2005, USFWS spent $200,000 for a study to determinate the 
feasibility of reinitiating a public visitors program on Midway. This 
study also concluded that public visitation was most feasible if it 
were conducted by a private contractor, who would also be responsible 
for all administrative and operational aspects of the Midway Atoll, 
including public visitation.

    The conclusion of USFWS' feasibility study was similar to that of 
IMMF's 2003 study, but neither proposal was acted upon by the 
Department of Interior and USFWS. Apparent disregard for the 
conclusions of these studies indicates a lack of interest and/or desire 
by USFWS for any public visitation on Midway. In addition, USFWS plans 
to destroy the two large fuel tanks on Midway in 2016, a logistically 
irreversible change (Document submitted for the Record). This would 
result in the destruction of what was historically the primary source 
of non-taxpayer income to the Atoll, and would--in reality--make any 
future public visitation to Midway impossible. Currently, USFWS is 
leasing smaller, above-ground portable fuel tanks. They do not have the 
capacity of the original tanks, and could be removed at any time. The 
existence of these tanks and their potential for easy removal strikes 
another blow to a potential visitation program.

    In summary, the key to a successful public visitation program is to 
utilize a private sector contractor; this concept was supported by the 
IMMF's and the USFWS' feasibility studies, and MPC was able to 
demonstrate that this could be done successfully with no expense to 
taxpayers. USFWS has virtually ensured public visitation will never 
return to Midway by (1) eliminating the sale of aviation fuel to 
commercial and military aircraft; (2) by planning the destruction of 
the two large fuel tanks in 2016 which would severely limit the 
potential for profit-making fuel sales (the current fuel supply is 
solely for the use of USFWS' needs); (3) by allowing the deterioration 
of buildings; and (4) by carrying out--as well as planning for--the 
demolition of buildings and structures which would support public 
visitation. The measures USFWS have taken in the administration and 
operation of Midway since 2002 have only served the interests of the 
USFWS, with little regard for public visitation or for Midway's 
historic value.

                    midway's airstrip on sand island

    The airstrip on Sand Island is no longer used as a full-time 
alternate emergency landing site for trans-Pacific flight nor is 
aviation available for aircraft. As recent as July 2014, an United 
Airlines trans-Pacific passenger plane was forced to make an emergency 
landing on Midway due to electrical difficulties.

             usfws mismanagement of midway's infrastructure

    The following has occurred under USFWS' watch:

    <bullet> Despite the fact that some of the remaining lead-painted 
            buildings are being maintained, others are being allowed to 
            deteriorate, resulting in environmental contamination with 
            lead paint chips, exposing the birds on the atoll to 
            potential lead toxicity.

    <bullet> In February 2003, between 75,000 to 100,000 gallons of 
            fuel leaked from the fuel farm which was being manned by 
            only one part-time employee, rather than the five full-time 
            employees employed by MPC. It was estimated by the MPC Fuel 
            Farm manager that at least five valves had to have been 
            pressurized in order for the leak to occur. The leakage was 
            the largest in recent Hawaiian archipelago history. 
            According to the Honolulu Advertiser, it was estimated to 
            have cost millions of dollars for USFWS to clean up the 
            fuel leak.

    <bullet> The USFWS demolished the Marine Barracks and four of the 
            five historic telegraph cable buildings without any 
            notification of such plans to the IMMF as directed by 
            Public Law 106-113: Section 126. The USFWS is also planning 
            the total destruction of all the buildings and structures 
            on Midway (Document submitted for the Record).

    <bullet> The Atoll remains closed to public visitation for the 
            foreseeable future.

                            current reports

    The preceding statements document USFWS' inability to manage all 
the functions of the Midway Atoll both administratively and 
operationally. This is clear from the 18-year history of its tenure on 
Midway. Currently, there are the following reports:

    <bullet> That the private contractor Chugach has offered to leave 
            before the April 15, 2016 expiration date;

    <bullet> That aviation fuel is running low in the two large fuel 
            tanks and will be empty in 2016, with no plan by USFWS to 
            obtain additional fuel;

    <bullet> Only emergency aircraft will be permitted to land on 
            Midway;

    <bullet> Bonin Petrels (birds) have overtaken the Atoll, creating 
            deep underground burrows, which lead to the death of young 
            Laysan Albatross when they fall into the tunnels and injure 
            the adult Albatross when they land.

                     solutions to midway's problems

    It is my opinion that there needs to be a change in the 
jurisdiction of Midway Atoll in order for it to become viable again, 
and for public visitation to occur on a consistent, fiscally sound 
basis. In addition, it is important that the airstrip on Sand Island 
operate once again as a full-time alternate trans-Pacific emergency 
landing site. On March 20, 2013, Senator Brian Schatz proposed one 
solution in Senate Bill S. 616 which directs the Department of Interior 
to study the feasibility of having the National Park Service, as well 
as private and non-profit organizations, assume responsibility for 
preserving, protecting and interpreting the natural and historic 
resources at Midway.
    On January 8, 2003, the IMMF offered to the Department of Interior 
its solution to Midway's difficulties (Submitted for the Record). It 
emphasizes that Midway Atoll can best be operated by the private 
sector, which in turn would administer the public visitation program. 
This scenario is feasible only if:

    <bullet> USFWS does not impede conditions in which a private 
            contractor could make a profit, from, for example, the sale 
            of aviation fuel to aircraft;

    <bullet> Midway's continued availability as an alternate emergency 
            trans-Pacific landing site exists; and

    <bullet> Midway's aviation fuel is offered to the U.S. Coast Guard 
            as needed for its search and rescue missions.

    In addition to revenues from aviation fuel, revenues need to be 
supplemented by public visitation. Using these basic principles, prior 
to its departure from Midway in 2002, MPC made a profit of $26,138 with 
no cost to the taxpayer, despite restrictions placed upon it by the 
USFWS.

    Regarding the governance of Midway Atoll, the foundation recommends 
a permanent Advisory Board of Governors be created that would include 
U.S. Fish and Wildlife Service, National Park Service, U.S. Coast 
Guard, U.S. Navy, FAA, the International Midway Memorial Foundation and 
a private contractor operating Midway. The President of the Board of 
Advisors would be rotated annually from each of its members, except the 
private contractor, and an annual budget and audit would be performed 
each year and reported back to the Secretary of Interior. This would 
allow for a viable management solution that meets the needs, and 
addresses the concerns, of those who have an interest in the future of 
the Atoll and all for which it stands.

Attachments:

1.  Report from the Interior Department Electronic Acquisition System 
detailing USFWS' expenses for the years 2003-2005

2.  Report from the Division of Congressional and Legislation Affairs 
detailing USFWS' expenses for the years 2005-2014

Submissions for the Record:

IMMF's Feasibility Study submitted to the Department of Interior in 
2003

USFWS' Removal Action Work Plan to demolish the two fuel tanks on 
Midway in 2016

                              ATTACHMENT 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                               ATTACHMENT 2                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                              
                               
                                

    Mr. Fleming. OK. At this point we will begin Member 
questioning of the witnesses. To allow all Members to 
participate and to ensure we can hear from all of our 
witnesses, Members are limited to 5 minutes for their 
questions. However, if Members have additional questions, we 
can have more than one round of questioning.
    I now recognize myself for 5 minutes.
    Mr. Foerster, I am going to go through several questions. 
So I would appreciate a yes or no, a very brief answer, just so 
I can get through them. During the second round, we can 
certainly visit back on them. Will you assure this committee 
today that, in the future, you will consult with the 
International Midway Memorial Foundation before any additional 
historic structures are destroyed?
    Mr. Foerster. Yes, sir. We will consult with the IMMF.
    Mr. Fleming. OK. Thank you.
    Will you testify today that the two large fuel tanks which 
each hold 2 million gallons will not be destroyed or removed 
and will be fully functional for the next 10 years?
    Mr. Foerster. We need to check the status of those fuel 
tanks--the structural status of those fuel tanks and the 
physical integrity.
    If additional tanks are needed, we would perhaps go in that 
direction, but we would do that in consultation with our 
partners, as directed by Congress.
    Mr. Fleming. OK. Mr. Daak, did you want to add something? I 
am sorry.
    Mr. Daak. Yes. I would like to add.
    I had mentioned before the fuel tanks are key to an 
affordable visitor program. They supplement the dollars that 
are actually needed to fly there. And without the fuel sales to 
ships and planes, the seats to Midway are much more expensive.
    And, at present, they are not using the fuel tanks because 
they are planned to be demolished. They have instead new 
portable above-ground tanks that hold 12,000 gallons each.
    Mr. Fleming. Mr. Foerster, is that true, that the tanks are 
scheduled to be demolished?
    Mr. Foerster. I believe, within our maintenance management 
plan and deferred maintenance plan for the entire refuge 
system, we identify individual structures, buildings, tanks, 
roads, runways, and we identify the life of the structures.
    Mr. Fleming. Well, again, I need short answers.
    Is it scheduled for demolition?
    Mr. Foerster. I believe every piece of--every building that 
we have----
    Mr. Fleming. I don't want to know about the other pieces. I 
want to know about the tanks.
    Mr. Foerster. The tanks. I believe the tanks are listed 
within our maintenance management----
    Mr. Fleming. To be destroyed. OK.
    So your answer, then, to that question is really, no, you 
can't give us assurance that those tanks won't be removed 
because you know they are going to be demolished.
    Mr. Foerster. I don't know that. I don't know they are 
going to be demolished, sir. I know that we will consult----
    Mr. Fleming. OK. Thank you. Thank you. I got my answer. 
Thank you.
    Mr. Foerster. Yes, sir.
    Mr. Jordan. Mr. Chairman?
    Mr. Fleming. I am sorry, sir. It is my time.
    Since 1997, what percentage of time has the refuge been 
opened to the public, Mr. Foerster?
    Mr. Foerster. Sir, since 1997, the Navy had responsibility 
for the visitor services program up until the transition, I 
believe in 2005, 2006, and then----
    Mr. Fleming. So what percentage? Can you give me a rough 
idea. Again, I have limited time here.
    Mr. Foerster. Timewise, sir, I believe the Navy had that 
component and then, after 2006, the Service had the 
responsibility for visitor services.
    Mr. Fleming. So what percentage of time has it been open, 
approximately? Since you have had title to it, what percentage 
of time has it been open to visitors, to the public?
    Mr. Foerster. I don't have the exact number right in front 
of me, sir. I am sorry. It has been, it was opened----
    Mr. Fleming. All right. We will take that for the record.
    Mr. Foerster. Thank you, sir.
    Mr. Fleming. Get back to us on that.
    Mr. Foerster. And I will make sure you get that. Thank you.
    Mr. Fleming. If I were to fly my own plane to Midway, would 
I be allowed to land?
    Mr. Foerster. Sir, Midway is currently closed to all 
visitors except in emergency circumstances. So if you had an 
emergency, yes, sir.
    Mr. Fleming. OK. If I were to sail my own boat to Midway, 
would I be given permission to enter the harbor?
    Mr. Foerster. Again, because Midway Atoll is currently 
closed, if you had an emergency, yes.
    Mr. Fleming. Has the Service denied entry to various planes 
and boats in the past year?
    Mr. Foerster. I don't have that answer in front of me, sir, 
but I will certainly find out and get it for you for the 
record.
    Mr. Fleming. Yes. Please get back to us for the record.
    Is it true that no special-use permits have been issued 
since 2005?
    Mr. Foerster. No, sir. I believe permits have been issued 
since 2005.
    Mr. Fleming. OK. Have there been requests? I assume there 
have been requests because you say you have issued those. We 
would like a report on the numbers.
    Mr. Foerster. Yes, sir. The number of special-use permits 
and who they are issued to?
    Mr. Fleming. And who they are. Yes.
    Mr. Foerster. Yes, sir. We will get that.
    Mr. Fleming. And please explain why it will cost $1.5 
million to operate a 6-month visitor program.
    Mr. Foerster. Working in a remote marine environment is 
very challenging and difficult. Everything that we do out there 
is expensive. Obviously, there is not a Costco down the street.
    Everything has additional costs. It costs upwards of a half 
million dollars to get a barge out there. It is incredibly 
expensive. So everything has added capacity----
    Mr. Fleming. Since my time is running out, if you would 
also take that for the record.
    Mr. Foerster. I certainly will. Thank you, sir.
    Mr. Fleming. If you would get back the breakdown for that 
cost.
    Mr. Foerster. Thank you.
    Mr. Fleming. My time is up. I will yield to the gentlelady 
from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    While there have been many accusations made against your 
agency, Mr. Foerster, but I know that, as a government agency, 
you also have to deal with all kinds of other agencies before 
you go ahead with whatever is happening.
    Both of the Majority's witnesses have said that the Service 
has temporarily discontinued the Midway Atoll visitation 
program, but they seem not to recall the steps you have taken 
to allow us access when funds are available.
    So to refresh their memories, please answer the following. 
On the first, I would just require a yes or no. Was there 
public visitation on Midway when it was in the Navy's control 
prior to 1996?
    Mr. Foerster. Not that I am aware of. I believe it was a 
naval base. I do not believe there were visitor services at 
that point.
    Ms. Bordallo. Since taking over management of Midway, has 
the Service facilitated public events on the atoll to 
commemorate the Battle of Midway and are similar events planned 
for the future?
    Mr. Foerster. Yes, ma'am. We have had a number of events to 
commemorate the battle. There were commemorative celebrations 
on the 60th anniversary, the 65th anniversary, and the 70th 
anniversary. In addition, on Memorial Day, Veterans Day, we 
hold special events for that.
    On the 70th anniversary, my regional director was out there 
and had the opportunity to stand on the beach with a veteran of 
the Battle of Midway, and he shared his personal experience 
with her, brought her to tears. She came back to me and 
impressed upon me the importance of ensuring that we are doing 
right by the National Memorial.
    Ms. Bordallo. Thank you.
    If Congress provided additional and sufficient funding 
specifically for the purpose of running a visitor program, 
would the Service resume visitor services at Midway?
    Mr. Foerster. Yes. Added capacity. Yes, ma'am.
    Ms. Bordallo. Now, another question I have for you, Mr. 
Foerster.
    Many private businesses, including guides, outfitters, and 
concessionaires, operate daily in and around national wildlife 
refuges and demonstrate the flexibility to make a profit while 
also ensuring that their operations are protective of refuge 
resources.
    Even as new management resources take effect, we have 
already established that Midway Phoenix Corporation, by its own 
admission, was unable to live up to its promises and run a 
sustainable tourism operation.
    Do you believe it is realistic to provide mass tourism on 
Midway at no expense to the taxpayer or is that a pipe dream?
    Mr. Foerster. We believe that it is possible to provide a 
high-quality visitor services program on Midway. We believe it 
would be a challenging endeavor. It would be very expensive, as 
I mentioned.
    It is challenging to get things out there, but we do 
believe it is possible to provide a high-quality visitor 
services program within the limits of the National Wildlife 
Refuge and the National Memorial.
    Ms. Bordallo. Thank you.
    Mr. Jordan, your work at Midway has focused on the massive 
colonies of albatross that nest there and the impacts that 
marine debris, specifically plastic pollution, has on their 
survival.
    So will you please talk a bit more about the massive scale 
and profound implications of the marine debris problem.
    Mr. Jordan. Yes.
    Ms. Bordallo. And if you could make it short because I just 
have a minute and a half left.
    Mr. Jordan. Yes. OK.
    There are an estimated 97,000 tons of plastic floating in 
the Pacific Ocean and there are lots of different engineers and 
biologists who have gone out there and tried to figure out ways 
to clean it up.
    And as far as anybody knows, the plastic can't be cleaned 
up out of the ocean and, even if it could be, it is pouring out 
of polluted rivers and it is being dumped by all kinds of 
different boats all the time.
    The reason that the plastic shows up in such a powerful way 
on Midway is the albatross range over the entire Pacific Ocean 
to collect food to come back and feed their babies. And so what 
they come back to the island with is stomachs filled with 
cigarette lighters and toothbrushes and plastic bottle caps.
    So, really, the problem of plastic pollution on Midway 
Island is no different than it is on any other island in the 
Pacific or elsewhere in the world, except that the albatrosses 
just bring it in this viscerally powerful and visual way.
    Ms. Bordallo. OK. Thank you.
    Now, you mentioned in your testimony particularly that of 
the Verbesina plant and the Ironwood trees. Do you think it is 
important to eradicate these plants both for the purpose of 
protecting native natural resources and for the historical 
value of restoring the atoll to the conditions that early 
visitors to Midway would have seen?
    Mr. Jordan. Yes. It is incredibly important. Verbesina is a 
cute, little yellow daisy that grows naturally above 10,000 
feet in the Colorado Rockies and, when you plant it at sea 
level on a tropical island in 4 million years of Guano, it 
grows 7 feet high and into these huge bushes that produce 
millions and millions of seeds.
    And if Fish and Wildlife stopped their efforts to rip out 
and control Verbesina, the entire island would be covered with 
it within a very short time and the albatrosses wouldn't be 
able to live there anymore. Same thing with the Ironwood trees.
    Ms. Bordallo. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Mr. Fleming. Gentlelady's time is up.
    Mr. Lowenthal is recognized for 5 minutes.
    Mr. Lowenthal. Thank you, Mr. Chair.
    Mr. Jordan, your photos of the albatrosses at Midway Atoll 
that have died from ingesting plastics are really striking.
    And I know a little bit about that from, I don't know if 
you know Mr. Charles Moore of the Algalita, who is a 
constituent of mine. I have known Charlie for 20 years.
    And I understand you are working on a film and you have a 
preview of 4 minutes. Can you show that to us today?
    Mr. Jordan. Yes. I would be delighted to. Thank you.
    There it is right there.
    [Video shown.]
    Mr. Lowenthal. Would you like to give--you only have a half 
a minute. Just tell us what is next.
    Mr. Jordan. I am very much hoping that I will have the film 
finished in the next few months. It has been a really long and 
challenging process to make a film that truly honors the 
incredible depth and beauty and power of the story of Midway.
    And it has been amazing, as I put this work out there and 
shared it with the world, that it isn't only reaching people 
who are interested in albatrosses or people who are interested 
in ocean plastic pollution.
    I just got back from Jeddah, Saudi Arabia, where I was 
invited to go and speak about this work. And people in the 
interior of Brazil and all over the world are transformed by 
something about the story of Midway.
    Mr. Lowenthal. Well, thank you.
    And I yield back the balance of my time.
    Mr. Fleming. Gentleman's time is up.
    Gentleman from Michigan is recognized for 5 minutes.
    Mr. Bentivolio. Thank you very much, Mr. Chairman, Ranking 
Member.
    Normally, this is not my committee, but I have asked to 
speak here today or ask some questions. This is of interest to 
me and many of my constituents back in Michigan. I am going 
through--I saw the videos. I have been looking at both sides of 
this equation. I have some very simple questions to ask.
    Under the MPC care--is it Mr. Daak?
    Mr. Daak. Yes.
    Mr. Bentivolio. Thank you very much for being here.
    Under your care, there are these large fuel tanks. Correct?
    Mr. Daak. Yes.
    Mr. Bentivolio. And never had a problem? Never been a leak 
or spill?
    Mr. Daak. Not to my knowledge. There were five full-time 
employees manning the fuel farm at that time.
    Mr. Bentivolio. But under Wildlife Division of the Federal 
Government, did they ever have a spill or damage to the 
environment because of a fuel spill from those tanks?
    Mr. Daak. Yes, sir.
    Mr. Bentivolio. They have?
    Mr. Daak. Yes. At the time of that spill, I think the 
estimated number of gallons was between 80,000 and 100,000 and 
the contractor had one part-time employee managing the entire 
facility at that time.
    Mr. Bentivolio. Thank you.
    So under the Federal Government's care, we had a fuel 
spill. Under the MPC, no fuel spill. Correct?
    Mr. Daak. That is correct.
    Mr. Bentivolio. And you had some golf carts, if I am not 
mistaken, quite a few golf carts----
    Mr. Daak. Yes, sir.
    Mr. Bentivolio [continuing]. That take people around and 
visitors and so on and so forth while MPC was in operation. 
Correct?
    Mr. Daak. Yes, sir.
    Mr. Bentivolio. OK. What happened to those golf carts?
    Mr. Daak. Well, a good portion of them were taken to the 
dump immediately after----
    Mr. Bentivolio. What dump?
    Mr. Daak. There is a dump on Midway where items are staged.
    Mr. Bentivolio. So we have acid leaking from those golf 
carts, leaking into the soil in the environment on Midway 
Island. Correct?
    Mr. Daak. Yes, sir. The way Phoenix positioned all our 
carts, inside one building. And they were taken, used, and 
separated for the ones that wanted to be kept and the ones that 
wanted to be thrown away by the follow-on people.
    Mr. Bentivolio. So you had the acid leaking from those 
batteries into the environment while under the care of the 
Federal Government Wildlife----
    Mr. Daak. I shouldn't say that because I wasn't there. My 
best guess is it could have happened.
    Mr. Bentivolio. OK. There was a hand-carved statue, quite a 
beautiful statue of quite a beautiful bird.
    Mr. Daak. Yes, sir.
    Mr. Bentivolio. And under the care of the Fish and Wildlife 
Service, what happened to that?
    Mr. Daak. It was destroyed or eaten by termites. I don't 
blame anybody for not catching it early. There wasn't a plan 
for maintaining the big statue.
    But what disappoints me is that we were told more than once 
that it was already underway to be rebuilt, not to worry, their 
only concern was it wouldn't be ready for an upcoming event, 
and that has not happened.
    Mr. Bentivolio. I understand.
    So it was destroyed or taken down, correct, under the Fish 
and Wildlife Service----
    Mr. Daak. It is down. It is not standing anymore. That is 
correct.
    Mr. Bentivolio. No maintenance.
    Can I ask: How much did it cost taxpayers for visitors to 
go to Midway Island while MPC was in charge?
    Mr. Daak. Our goal was near no cost.
    Mr. Bentivolio. No cost.
    And how much today did the Fish and Wildlife Service say 
you needed out of taxpayer money to reestablish visitors to 
Midway Island?
    Mr. Foerster. The added capacity and staffing, sir, would 
be a little bit over $1 million a year.
    Mr. Bentivolio. A little over $1 million.
    Mr. Foerster. Yes, sir.
    Mr. Bentivolio. So right now, under your care, it costs, if 
I am not mistaken--correct me if wrong--about $2 million per 
year to maintain Midway Island at least 6 months of the year? 
Did I understand that correctly?
    Mr. Foerster. The operating budget for Midway Atoll is 
about $3.6 million a year right now. Yes, sir.
    Mr. Bentivolio. $3.6 million. And under their care, it 
didn't cost us anything.
    In fact, your entire area gets over $470 million per year 
out of taxpayer money and used $3 million to--actually, it 
looks like, under the Fish and Wildlife Service, you have done 
more damage to Midway Island than MPC has as far as the 
environment is concerned.
    And I want to ask one more question, Mr. Jordan. I really 
appreciate that video, and I understand. But somehow you are 
skewing the message.
    Those plastics--I am very familiar with this pollution 
problem in the ocean. I mean, we have these vast areas in the 
ocean that, for some reason, all the debris that falls into the 
ocean, comes out of the rivers, falls off container ships, 
seems to gather together not only in the Indian Ocean, the 
Pacific, and the Atlantic, and those albatrosses, very, very 
beautiful birds, go there, land there, start eating some shiny 
things, come back to Midway Island and die.
    But under no circumstances, and according to your 
testimony, are any of those birds ingesting those things on 
Midway Island. Is that correct?
    Mr. Jordan. That is correct.
    Mr. Bentivolio. Thank you very much.
    I appreciate it, Mr. Chairman. I yield back.
    Mr. Fleming. Thank you. The gentleman yield backs.
    Well, I think we would like to have another round. Would 
you like?
    So I now yield myself 5 minutes.
    Mr. Jordan, when were you there last?
    Mr. Jordan. I was just trying to remember. It was either 
the fall of 2012 or the fall of 2013.
    Mr. Fleming. OK. And, Mr. Foerster, when was the island 
closed off to travelers?
    Mr. Foerster. Well, the island, the visitors services 
program was suspended in 2012, and I believe----
    Mr. Fleming. But in my previous question, I said what about 
an average guy like me who wants to go there to visit, not as a 
Congressman, but to visit. You said I wouldn't be allowed to 
dock there or to fly there.
    So when did that begin?
    Mr. Foerster. Again, the visitor services program was 
suspended in 2012.
    Mr. Fleming. So how did Mr. Jordan continue to visit there?
    Mr. Foerster. I believe, sir, Mr. Jordan had a special-use 
permit or a monument permit to conduct that activity.
    Mr. Fleming. A special permit.
    Well, how does an average citizen who wants to enjoy this 
lovely scene in person get that special permit?
    Mr. Foerster. If they are going out to conduct an activity 
or commercial venture, that would then qualify for a monument 
or a special-use-type permit.
    Mr. Fleming. So if they have a special interest, a special 
message they want to create that may be acceptable to, say, the 
current administration, they probably could get such a permit?
    Mr. Foerster. If they met the requirements of the 
regulations and policy, then we would----
    Mr. Fleming. Regulations and policy. OK.
    Mr. Forester. Yes, sir.
    Mr. Fleming. All right.
    Mr. Foerster. If you could restate your question, the last 
part of it I didn't quite understand.
    Mr. Fleming. Well, you see, one of the things that I have 
learned--I have been on this committee for 6 years, and the 
really bottom-line thing I have learned about various 
countries, islands around the world and so forth is that, when 
you get Americans personally involved, they become advocates 
and they are willing to put their money and their commitment 
into that success.
    Ivory in Africa is a good example of that where now we are 
actually disallowing hunting of ivory and, as a result of that, 
poaching will go to astronomical levels and then we are going 
to lose all of our elephants. So, you see, it is actually a net 
plus to have humans, of course, with certain restrictions and 
limitations.
    And so we have allowed a photographer to go there to bring 
back a message that these birds are eating things that are 
really pollutants from around the world, not just on this 
island.
    But, on the other hand, the average person who may want to 
contribute their money directly and see to it that this area is 
preserved and the birds are saved is not allowed.
    Mr. Foerster. That is correct in that context. We do not 
have a visitors services program there, sir.
    Mr. Fleming. OK. Well, thank you.
    Let me change subject here in the time that I have.
    Dr. D'Angelo, Public Law 106-113, enacted in 1999, 
designated Midway Atoll as a national memorial to the Battle of 
Midway. The law says that the Secretary shall consult on a 
regular basis with such organizations, including the 
International Midway Memorial Foundation on the management of 
the National Memorial.
    Have those consultations occurred?
    Mr. D'Angelo. No. They have not occurred in any form. I 
have never received a consultation regarding the management of 
the--Sorry. I have never received any consultation, regular or 
irregular, from the Fish and Wildlife Service as directed by 
the public law.
    Mr. Fleming. OK. And, Mr. Daak, you can weigh in as well on 
any of these questions.
    Have any historic World War II buildings been destroyed 
since the Service obtained fee title to the land? And was your 
organization consulted, as required by law, prior to that 
removal?
    Either one of you would be fine.
    Mr. Daak. There have been historical buildings destroyed. 
There were, as I remember----
    Mr. Fleming. But were you consulted before that, before 
destroying them?
    Mr. Daak. No. They had no need to consult with me. I am 
just a guy here on my own.
    Mr. Fleming. How about you, Dr. D'Angelo?
    Mr. D'Angelo. No. They haven't.
    In reference to the statement made that I have been talking 
to Dan Clark, yes, we have been talking, but the discussions 
have not been substantive. He had to go on a Coast Guard duty 
and we were supposed to hook up and, due to his commitment, we 
didn't.
    We spoke after that and, while we were on the phone, the 
new telephone apparatus went down, and I was supposed to hear 
back in a few weeks.
    Mr. Fleming. OK. But, bottom line, they didn't consult with 
you before doing it?
    Mr. D'Angelo. No. We were talking about talking, but we 
never talked.
    Mr. Fleming. In my remaining time, let me ask one other 
question.
    At the time of the transfer, the Department of the Navy 
identified a number of historic properties on Midway. How well 
have any been maintained by the Service?
    Either one of you.
    Mr. Daak. In my opinion, not well. They have learned 
lessons the hard way. There is a lot of lead paint on the 
ground. That is a very big problem.
    And the solution, in my opinion, is to keep the buildings 
painted and keep the paint from peeling off the buildings and 
falling onto the ground. It has been a problem since I first 
went there in 1983.
    Mr. Fleming. OK. All right. My time is up.
    Gentlelady from Guam is recognized for 5 minutes.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Foerster, according to the National Park Services 
Historic Landmarks program, the Navy did not live up to its 
commitment to appropriately decommission buildings before 
transferring Midway to the Department of the Interior, leaving 
behind a legacy of contaminants, such as lead paint, asbestos, 
invasive species like the Verbesina.
    And, further, the Midway Phoenix Corporation discontinued 
operations on Midway without removing any of the tourism-
related equipment, machinery or structures or golf carts or 
whatever.
    Now, somebody said they donated it to the island. Come on. 
Let's be realistic. They just didn't want to pay to send it all 
back. That would have been very expensive. And, besides, they 
lost $15 million.
    Mr. Daak. If I can say--I personally own the golf carts.
    Ms. Bordallo. No. I would like to finish, please.
    Mr. Daak. OK.
    Ms. Bordallo. Has dealing with the messes created by other 
entities been a financial burden on the service, Mr. Foerster?
    Mr. Foerster. Well, thank you, ma'am.
    Yes. It certainly has been a challenge. With respect to the 
issues like lead-based paint that were brought up, we have 
spent $15.1 million dealing with the lead-based paint issue out 
on Midway. There are also asbestos issues and other things.
    So, yes, it has been very challenging. That is hazardous 
fund, superfund-type money that comes in.
    Ms. Bordallo. I am very familiar with this because we have 
dealt with this on Guam when military has closed down and so 
forth.
    OK. How has that contributed to your maintenance backlog 
and your ability to address your priorities of natural and 
historical resources at Midway? If you could answer it shortly.
    Mr. Foerster. Not having the capacity makes it very 
challenging. We have a tremendous maintenance backlog at Midway 
Island, and we are working every day to make it a better place.
    Ms. Bordallo. OK. Another one for Mr. Foerster.
    The text of Section 126 of Public Law 106-113, which 
requires the designation of Midway Atoll as a national memorial 
to the Battle of Midway, was passed in 2000 after 
administration of Midway had passed to the Department of 
Interior.
    The law provides no funding for additional activities 
related to the Memorial, creates no legal obligation to make 
management changes, and does not require consultation with any 
party with a defined frequency or schedule.
    Now, given these facts, do you believe the Service has met 
its obligation under the law?
    Mr. Foerster. I believe we have met our obligation. We 
coordinate with a number of partners on it, including the state 
of Hawaii. The state has a historic preservation officer.
    However, I have come to find out that we have not been 
consulting on a regular recurring basis with the IMMF. And 
since I took over, I directed Refuge Manager Dan Clark to do 
that. That was----
    Ms. Bordallo. Now I have another question here. And that 
brings up the point of the historic preservation plan.
    We have to remember that, as a government agency, you have 
to deal with all these other government agencies before you can 
move forward, which sometimes can postpone and so forth.
    So has the Service managed Midway Atoll in accordance with 
the historic preservation plan?
    Mr. Foerster. We have, ma'am. We have a historic 
preservation plan that was created in 1999 and updated in 2010, 
and we are currently working with the state historic 
preservation officer to comply with the National Historic 
Preservation Act. We currently have, as I recall, 63 heritage 
structures on Midway.
    Ms. Bordallo. All right. Let's see. I still have a little 
time left.
    Mr. Chairman, you made a statement about the African 
elephants that would result in the elimination of elephants 
because of this ivory situation.
    Is that a----
    Mr. Fleming. Yes, you may recall, if the gentlelady will 
yield, in Zimbabwe we had hearings on the ban on ivory hunting 
and the industry in which people pay to come hunt a limited 
number of elephants.
    It actually stands up the infrastructure that protects the 
elephants from poachers. Well, as that infrastructure goes 
down, the poachers are going to be unlimited in their access to 
the elephants. So the net result is the death of elephants.
    So that is why it is important----
    Ms. Bordallo. But is there evidence to this?
    Mr. Fleming. Oh, yes. Absolutely. It was brought out in our 
committee meeting, yes--our subcommittee meeting.
    Ms. Bordallo. Well, it is something new to me. I haven't 
seen the evidence. So----
    Mr. Fleming. OK. Yes.
    But it was--we had a very full hearing, and maybe you were 
not present. Yes, we actually had a wildlife expert from 
Zimbabwe who testified to this and had the data and the 
numbers.
    Ms. Bordallo. All right. Well, Mr. Chairman, I yield back.
    And I want to thank the witnesses today for their 
testimonies.
    Mr. Fleming. Now I recognize the gentleman from Michigan.
    Mr. Bentivolio. Thank you again, Mr. Chairman and Ranking 
Member.
    A few quick questions. Excuse me.
    Mr. D'Angelo. Correct?
    Mr. D'Angelo. Yes.
    Mr. Bentivolio. On Midway Island, they had a lot of trees, 
if I am not mistaken. Correct? And they were Ironwood trees? 
Very valuable wood.
    Mr. D'Angelo. Yes.
    Mr. Bentivolio. What did the----
    Mr. D'Angelo. Did you hear the yes?
    Mr. Bentivolio. Yes. I heard the yes. Thank you.
    What did the Fish and Wildlife do to those--or division of 
the Federal Government do to those trees?
    Mr. D'Angelo. Yes. Well, Mike can confirm this. But they 
eliminated all the trees on Eastern Island, OK, which is not 
accessible, even when there was public visitation. It was 
closed to the public. I just want to add that.
    Mr. Bentivolio. So those--they were removed by the----
    Mr. D'Angelo. Fish and Wildlife Service.
    Mr. Bentivolio. Mr. Foerster, why did they do that?
    Mr. Foerster. Sir, the trees are not native and they 
interfere with the----
    Mr. Bentivolio. Well, they are now. Have you ever heard of 
the Columbian Exchange? I mean, half of America--everything 
that we grow in this country, just about, is not native to this 
country. Are you going to turn it back 300, 400 years? Have you 
ever heard of the Columbian Exchange, sir?
    You didn't?
    Mr. Foerster. Yes, sir. Thank you.
    And Ironwood trees, much like the Verbesina plants, are not 
native to----
    Mr. Bentivolio. So without those trees, now we have mass 
beach erosion in the Eastern Island, to my understanding. Is 
that correct? In my study, that is what I have--my research, 
that is what I hear, sir.
    Mr. Foerster. I am unaware of the trees causing the----
    Mr. Bentivolio. Let's see. Under your care, we have golf 
carts with their acid leeching into the soil, fuel tanks that 
leeched into the ocean and the beach, and now we have trees 
that were removed, causing mass erosion on the beaches of 
Eastern Island.
    Now, and we have, let's see what else you did.
    They have signs, street signs on that island, if I am not 
mistaken, and the Fish and Wildlife Service lowered them. Is 
that correct?
    Mr. Foerster. Yes, sir. The----
    Mr. Bentivolio. Rather than cleaning up or painting the 
buildings, you went about lowering signs because some bird, a 
very beautiful bird, is going to run into them. Instead, they 
are running into those trees and dying on those trees. Those 
are the pictures I have.
    I would like to enter those into record, if I may, Mr. 
Chairman, these photographs.
    Mr. Fleming. Without objection.
    Mr. Bentivolio. Thank you very much. I yield back.
    Mr. Fleming. OK. The gentleman yields back.
    Mr. Daak, you wanted to respond to Ms. Bordallo about 
something about, I think, some of the buildings and things.
    Would you like an opportunity to respond? Oh. The golf 
carts and infrastructure.
    Mr. Daak. Well, I mostly wanted to respond about the fuel 
tanks. I was cut off short on that.
    Mr. Fleming. Go ahead.
    Mr. Daak. As we mentioned, the large fuel tanks are not 
being used anymore. Instead, portable above-ground tanks, 
supposedly the best of their kind for not spilling, are in 
place, each tank holding 12,000 gallons, but maybe 10 tanks or 
so, tops.
    Mr. D'Angelo. Yes. That is correct.
    Mr. Daak. And the important thing that I notice about this 
is that these tanks weren't purchased. They are leased. And at 
any moment they can turn them back in and have the ultimate 
excuse to further close the doors.
    Mr. Fleming. OK. Good. I appreciate your response.
    OK. Back to Dr. D'Angelo and Mr. Daak, another question. 
Why is it important that the National Memorial and the 
remaining World War II structures be preserved in the future?
    Mr. D'Angelo. Well, the memory of the Battle of Midway 
speaks even beyond the battle itself. It talks about the 
courage, the bravery, and a pivotal battle in World War II. 
And, as a result of that, the only way to perpetuate a memory 
is by having the public visit there. One of our ideas was to 
have a Midway museum with artifacts, maybe get a PBY to take 
people around, et cetera.
    And so the important thing is to perpetuate the history 
because, without the history and its inspiration, Americans are 
the losers. And even though it is distant, there are two 
feasibility studies that show that the private sector can 
perform their work adequately out at Midway and make a profit.
    And the destruction of the fuel tanks puts a death knell on 
future public visitation, at least for the private sector. If 
they want public visitation with the loss of those tanks, 
Congress will get hit for more money. And so more money will be 
lost.
    Mr. Fleming. Yes. I understand.
    Mr. D'Angelo. Right.
    Mr. Fleming. In your opinion, are these structures any less 
important than, say, the historical structures at Gettysburg or 
the Battle of Antietam or Vicksburg?
    Mr. D'Angelo. Not at all. And every structure plays a role 
in the memory of Midway.
    Mr. Fleming. OK. Is Midway any less important--well, I 
think I have covered that well enough as it is.
    Mr. Daak, do you have anything you would like to add?
    Mr. Daak. Well, I would like to say that I was there for 
the entire duration of the Midway Phoenix visitor program. I 
witnessed it working hand in hand where people were interested 
in wildlife, further assisted wildlife ventures.
    And we were limited to 100 visitors a week. We weren't 
using jet skis in the lagoon. In fact, we weren't even allowed 
to permit kayaks in the lagoon for fear that oars could hit a 
turtle.
    These are extreme deals to us that----
    Mr. Fleming. So let me encapsulate something in the time I 
have left, and you can add after that.
    So, basically, what we are looking at, if we had a for-
profit or certain private enterprise there, it would take the 
burden off the taxpayer to maintain this, it would bring 
visitors in, of course, just like we like to go to the war 
memorials on Guam and Honolulu, and, of course, they bring 
their money, which helps maintain the infrastructure.
    And certainly we can put in place the kind of restrictions 
so that they are not using this as a Caribbean cruise, but 
actually a hallowed ground, a sacred ground.
    So we could actually create the money and unburden the 
taxpayers, which gets to be a heavier burden every year. We 
could actually do it in a way that would really honor it and 
honor those who sacrificed their lives and sacrificed many 
things in the effort to turn that war around, that we 
eventually won. It seems to me that that is a win-win 
situation.
    Mr. Daak. That is exactly how I feel about it.
    Mr. Fleming. And at the end of the day, the problems that 
befall that island, particularly, say, the birds who are 
swallowing plastics, that is there now. It is happening now, 
and it probably always will be a problem until we come up with 
a solution for that problem.
    Mr. Daak. Yes. Right.
    Mr. Fleming. Yes, sir.
    Mr. D'Angelo. Yes. I would just like to add one additional 
feature to the Congressman about what Midway Phoenix had to 
face.
    The beaches, as you already know, on Midway are beautiful. 
And so the endangered species, Hawaiian Monk seal, is listed.
    Fish and Wildlife could not get the Hawaiian Monk seal to 
habitat on Midway, and what they did is they went to the 
neighboring island and transported a few of them over to Midway 
and then closed the beaches to the public.
    So these were some of the things--you will never get the 
private sector to work out at Midway if you have to face 
Draconian measures like Fish and Wildlife imposed on Midway 
Phoenix.
    Mr. Fleming. And my time is up. And I--yes.
    I yield to the gentlelady.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    This really isn't for anybody to answer, but I just want to 
make a statement after hearing everything this morning.
    I wanted to read part of an email that my staff received 
from Mr. Dan Clark, who is the refuge manager at Midway Atoll. 
And, as Mr. Foerster mentioned, Dan had served for 33 years in 
the U.S. Coast Guard and the Coast Guard Reserve.
    And I wish to tell the gentlemen that I have visited Midway 
and I have been many times on Wake Island. I am from Guam. You 
know, that is a stopping-off point once in a while for us, but 
I did take a codel to Midway several years ago.

    And I want to quote what Mr. Clark says:

        ``We take great pride in the memorials, and they are 
        the centerpiece for regular events held on Midway Atoll 
        to commemorate significant events and holidays, 
        example, Memorial Day, the Battle of Midway, and 
        Veterans Day.

        And, additionally, the albatrosses are tied to this 
        place. They are very important. They were here before 
        people resided on the atoll, were present during the 
        significant events of the military era, and are part of 
        the fabric that makes up Midway Atoll.

        Veterans remember their interactions with albatrosses 
        all the time. The combination of albatrosses and the 
        other 18 species of birds that depend on the atoll and 
        the recognition of the historic significance of the 
        place is an example of how special the place is.

        We are proud to serve both at Midway Atoll National 
        Wildlife Refuge and Battle of Midway National 
        Memorial.''

    And I want to say, as I said in my opening statement, if 
any member of this committee is unsatisfied with the management 
of historic resources at Midway, I invite him to join me in 
signing a letter to the Appropriations Committee requesting 
additional funding to do the job right.
    I think there is a place for the Department of Interior and 
their role there, the Fish and Wildlife Refuge, and also for a 
certain amount of visitation rights for people to come to 
Midway.
    And, with that, I end and I turn back my time. Thank you.
    Mr. Fleming. Gentlelady yields back.
    I recognize the gentleman from Michigan.
    Mr. Bentivolio. Thank you again, Mr. Chairman.
    Earlier, at the beginning of this hearing, Mr. Foerster, 
you indicated to the Chairman that you were going to consult 
with the International Midway Memorial and other people in how 
to figure out some kind of harmony on where we can have 
business as well as an environment that is safe and secure.
    Can you tell me what your definition of ``consult'' means. 
I mean, explain what you mean by the word ``consult.'' I 
haven't seen any of it in the past, according to the records. 
Actually, the gentleman pointed it out. It was very Draconian.
    Mr. Foerster. Well, sir, I would acquiesce to a dictionary 
for the formal definition of ``consult.'' But as directed by 
Congress and the law, ``consult'' means communicate. It means 
open regular----
    Mr. Bentivolio. Yes, but it doesn't really mean for you--or 
it seems like not you personally, I apologize for that--but for 
the Agency, it is basically you telling them what is going on 
and what you are going to do. I mean, that is my experience 
with Federal agencies. It is basically, ``These are the rules. 
We made them up. This is how we are going to do it. This is how 
we interpret it. You will do this.''
    Look, in my state, I am surrounded by more fresh water than 
almost most countries in the world, the Great Lakes. And, yet, 
if with the stress that we have on our fisheries and the 
oceans, I have to go through 13 different Federal and state 
agencies to build a fish farm. And the biggest hurdle is the 
Fish and Wildlife Service.
    You are helping, the Federal Government is helping, to keep 
employment at low rates in this country. That is the number one 
biggest problem I see in our employment and our economy, is the 
Federal and state agencies involved.
    Now, we understand you have some good ideas and we are 
willing to listen. And I can tell these two gentleman over 
here, they want to do the right thing. Their heart is in the 
right place. But it seems like you want it all way.
    We have got to turn everything back to the way it was and, 
if we did that, well, we wouldn't be growing corn in the United 
States--or--excuse me--that is the opposite--they wouldn't be 
growing it in Europe. Corn was a natural here.
    Thank you very much, Mr. Chairman.
    Mr. Fleming. OK. The gentleman yields back.
    Before closing, I would again like to thank our witnesses 
for participating in this important hearing.
    I would ask unanimous consent to submit for the record the 
letter Congressman Duncan of Tennessee and I wrote to the 
Government Accountability Office, the 2010 Historic 
Preservation Plan for the refuge, IMMF Feasibility Study, a 
document entitled ``To Create Sound Fiscal Policy for the 
Midway Atoll at No Taxpayers Expense,'' and a Removal Action 
Work Plan, a document on the removal of lead-based paint from 
structures on the island.
    In the final analysis, it is clear that in the terms of 
stewardship, the Fish and Wildlife Service made a priority of 
conserving and protecting the very species of birds living on 
the island.
    However, the Service gets a failing grade for their lack of 
a visitors program and for allowing the historic World War II 
structures on Midway to deteriorate.
    I would remind the Agency that one of the purposes of the 
refuge was to recognize and maintain the historic significance 
of Midway Atoll. I do not know how you do that if many of the 
structures have either been destroyed or targeted for 
demolition.
    And, again, we do not have an unending pile, stash, if you 
will, of dollars. We are $18 trillion in debt. So just throwing 
more money at this issue will not solve it.
    It was a mistake to make Midway Island a national wildlife 
refuge. The Fish and Wildlife Service did not have the 
interest, expertise, or desire to protect the historic 
resources on this island. This is sacred ground where young 
American Marines and Navy personnel gave their lives to ensure 
freedom for this Nation.
    As Admiral Walter Lord reminds those who read the Battle of 
Midway Memorial: They had no right to win; yet, they did. And, 
in doing so, they changed the course of a war, even against the 
greatest of odds, a magic blend of skill, faith, and valor that 
can lift men from certain defeat to incredible victory.
    I want to thank Members and staff for their contributions 
to this hearing.
    If there are no further business, without objection, the 
subcommittee stands adjourned.

    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

           Prepared Statement of the Friends of Midway Atoll
                        National Wildlife Refuge
    Chairman Fleming, Ranking Member Sablan and members of the 
subcommittee, thank you for the opportunity to submit this written 
statement. The Friends of Midway Atoll National Wildlife Refuge is an 
association of supporters and former residents of Midway Atoll. Our 
mission is to support the Midway Atoll National Wildlife Refuge in its 
efforts to preserve, protect and restore the biological diversity and 
historical resources of Midway Atoll while providing opportunity for 
wildlife-dependent recreation, education and scientific research. We 
support the U.S. Fish and Wildlife Service as a conservator of both 
history and wildlife at Midway. We also strongly support the re-opening 
of Midway to visitors in ways compatible with the wildlife and 
historical preservation mission of the Refuge.
    Just this past year, Friends of Midway provided partial funds for 
Refuge projects that supported the preservation of historical and 
natural resources at Midway: the invasive weed Verbesina has been 
almost eliminated from Eastern Island; short-tailed albatross, a 
species once thought to be extinct, have been breeding at Midway and 
managers can observe their movements using remote cameras and; murals 
depicting military life that were at risk from the elements at Midway 
were transported to Hawai`i and stabilized by art restoration experts.
    USFWS managed a very successful visitor program at Midway between 
2008 and 2012 but the visitor program was ended due to budget cuts. Any 
program that would start up now at no cost to the taxpayer will 
necessarily be expensive. This was not the case in the late nineties 
but several main factors have changed. The commercial airline that 
served Midway closed due to bankruptcy. In order to conserve funds, 
USFWS has reduced the footprint at Midway and there is no longer the 
capacity for large numbers of visitors that could provide an economy of 
scale to reduce costs. Furthermore, large numbers of visitors would be 
detrimental to both the historical monuments and the wildlife at 
Midway.
    The historical monuments at Midway are important and Friends of 
Midway fully supports taxpayer funds paying for veterans to visit 
Midway for memorial services and special ceremonies. However, a well-
run visitor program open to all that protects both the historical and 
natural resources of the Atoll will have to be adequately funded--and 
that includes providing USFWS with enough funds to provide for the 
staff necessary to oversee a visitor program. The current budget does 
not allow for a visitor program.
    Friends of Midway are disappointed that the committee did not 
invite witnesses from the very successful visitor program between 2008-
2012 or anyone that supports the work of the USFWS at Midway. We hope 
that in future discussions of this issue voices that support the U.S. 
Fish and Wildlife Service and the wildlife at Midway will have a chance 
to be heard.

                                 ______
                                 

                   U.S. House of Representatives,  
                    Committee on Natural Resources,
                                       Washington, DC 20515
                                                      July 8, 2014.

The Honorable Gene L. Dodaro,
Comptroller General of the United States,
Government Accountability Office,
441 G St. NW,
Washington, DC 20548.

    Dear Comptroller General Dodaro:

    We would like to formally request that the Government 
Accountability Office conduct a comprehensive analysis and report to 
the Congress on the management of the financial and historic aspects of 
Midway Atoll by the U.S. Fish and Wildlife Service (USFWS). We are 
concerned about possible mismanagement by USFWS based on information 
that has recently come to our attention.

    We submit the following background information:

    <bullet> USFWS gained jurisdiction over Midway in 1996 when the 
            Atoll was transferred to the Service by the U.S. Navy.

    <bullet> In 2000, President Clinton signed a bill designating the 
            entire Midway Atoll as a National Memorial (Public Law 106-
            113, Appendix C, Sect. 126).

    <bullet> Sect. 126 requires the Secretary of Interior to consult on 
            a regular basis with the International Midway Memorial 
            Foundation (IMMF) on the management of the National 
            Memorial.

    <bullet> Eco- and historical tourism have been an integral part of 
            USFWS' public policy toward Midway.

    <bullet> A private company administered all services on Midway 
            under the supervision of the USFWS from 1997-2002 at no 
            taxpayer expense.

    <bullet> For many years, Midway Atoll has been utilized as an 
            emergency landing site for trans-Pacific flights.

    According to photographic evidence obtained by the committee, USFWS 
apparently has improperly demolished four historic cable buildings and 
other structures on Eastern and Sand islands that were protected by the 
Midway National Memorial designation.
    In addition, it appears that the costs of operating Midway have 
risen exponentially since the private concessionaire departed in 2002. 
Moreover, since November 2013, Midway Atoll has been closed to the 
general public. Finally, we have been advised that USFWS is planning to 
destroy two large fuel tanks on Sand Island, which apparently would 
make any future public access to Midway--whether for tourism or 
emergency aircraft landing--virtually impossible.

    We are, therefore, requesting a comprehensive study by the 
Government Accountability Office which would include the following 
important components:

    <bullet> A financial audit of USFWS revenues and operating costs 
            related to the management of Midway Atoll.

    <bullet> An accounting of all buildings and structures that have 
            been destroyed, without due process as required in Public 
            Law 106-113, and the cost of these removals.

    <bullet> Information on any plans to destroy the remaining fuel 
            tanks, and any other structures including the justification 
            for their removal.

    <bullet> The current status of Midway as an alternate emergency 
            landing site for trans-Pacific flights, and what impact the 
            destruction of the fuel tanks would have on this 
            capability.

    <bullet> Documentation of the physical appearance of Midway Atoll, 
            including areas on which the cable buildings, as well as 
            other historical structures, were situated.

    <bullet> The history of public access to this refuge since it was 
            established and the lands that were incorporated within the 
            National Wildlife Refuge System.

    <bullet> Documentation on whether the Secretary of Interior has 
            sought, or attempted to seek, the input of the 
            International Midway Memorial Foundation as directed in 
            Public Law 106-113.

    We look forward to hearing from you on when GAO can initiate this 
investigation and how long it would take to complete this important 
effort. Should you have any questions, please feel free to contact 
Garth Van Meter of Congressman John Fleming's staff who is the contact 
person on this comprehensive review.

            Sincerely,

                                        John Fleming, M.D.,
                               Chairman, Subcommittee on Fisheries,
                              Wildlife, Oceans and Insular Affairs.

                                       John J. Duncan, Jr.,
                                                Member of Congress.

                                 ______
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                                                

                     IMMF Midway Feasibility Study

  A DOCUMENT TO CREATE SOUND FISCAL POLICY FOR THE MIDWAY ATOLL AT NO 
                           TAXPAYERS EXPENSE

We begin by mentioning the basic rule that any justifiable fiscal 
policy should enjoy the strong desire and commitment by those in charge 
of the policy to ensure its success.

Midway Atoll is unique in that it is at the same time both a Wildlife 
Refuge and a National Memorial. Its islands offer to the public 
beautiful beaches and sunsets, excellent opportunities for boating and 
fishing, and a significant natural and historic resource. Of critical 
importance is that its airport remain an alternate landing site for 
extended twin-engine operations (ETOPS) in the north central Pacific, 
and for search and rescue missions run by the U.S. Coast Guard. All of 
the foregoing factors must be kept in mind when creating any operating 
plan for the Midway Atoll.

This document includes a cost/revenue statement for the month of July 
2001, the only month in its six-year tenure in which the Midway Phoenix 
Corporation (MPC) made a profit while administrating the Midway Atoll. 
An analysis of this statement and some overall recommendations will 
follow.

STATEMENT OF OPERATIONS by MPC for July 2001:

Revenues:

Guest Operations:


Lodging..............................................        $124,836.95
Per Diem Lodging.....................................          20,815.00
Clipper House Sales..................................          18,991.40
Galley Sales.........................................          27,465.72
Bike and Cart Rental.................................          14,237.50
Tavern Sales.........................................           9,222.25
Gift Shop Sales......................................          19,881.15
General Store Sales..................................          13,675.48
Long Distance Revenue................................           8,275.19
Fishing and Diving Revenues..........................          58,073.97
Internet Revenue.....................................           1,061.65
Mini Bar Sales.......................................           2,723.75
                                                      ------------------
 
Total Guest Revenues:................................        $319,260.01
 


Air Transport Revenues:


Airfare..............................................        $  3,439.05
Shipping and Weight Revenue..........................           2,820.00
                                                      ------------------
 
Total:...............................................        $  6,259.05
 


Fuel, Airport and Equipment Operations:


Dockage Service Income...............................        $    210.00
Fuel Sales--Aircraft.................................          69,694.65
Fuel Sales--Boats....................................          39,236.81
Fuel Sales--FWS......................................             952.00
Landing Fees.........................................           5,960.00
                                                      ------------------
 
Total Fuel, Airport & Equipment:.....................        $116,053.46
 


All Other Revenue:


Employee Recreation Revenue..........................        $ 11,760.00
Medical Billings Guests..............................           2,851.00
Miscellaneous Revenue................................          35,979.40
Boeing Support.......................................          66,000.00
                                                      ------------------
 
Total All Other Revenues:............................        $116,590.40
 
TOTAL REVENUES FOR JULY 2001:........................        $558,162.92
 

Transportation:


Aloha Charter Expense................................        $ 85,200.00
Aloha Fees and Expenses..............................           8,123.21
Vessel and Boat Expense..............................           7,379.52
                                                      ------------------
 
Total Transportation:................................        $100,702.73
 


Travel:


Airplane Tickets.....................................        $ 13,316.58
Travel...............................................           7,472.39
Recruiting Services..................................             643.84
                                                      ------------------
 
Total Travel:........................................        $ 21,432.81
 




Fuel Consumed by Fixed Base..........................        $ 30,275.28
Fuels Consumed by MPC Vehicles.......................           2,850.35
Galley and Cost of Food..............................          18,290.72
Satellite and Fixed Telephone........................             677.22
Telephone Long Distance..............................           1,249.67
Telephone Supplies and Equipment.....................             379.75
Material, Supplies and Maintenance...................          15,913.08
Airport Expense......................................             984.00
Medical Supplies.....................................           1,807.68
Freight..............................................           1,753.85
Office Supplies......................................           1,009.31
Employee Recreation Expense..........................             745.42
                                                      ------------------
 
Total General Island Support:........................        $ 75,936.33
 


All Other Expenses:


Advertising..........................................        $  3,148.99
Professional Services................................           1,122.19
Phoenix Services.....................................          11,000.00
Taxes and Licenses...................................              10.00
Bank and Card Fees...................................           1,011.91
Miscellaneous Expenses...............................           1,180.16
Lease Expense to MDY.................................          22,800.00
                                                      ------------------
 
Total All Other Expenses:............................        $ 40,273.25
 



Total Expenses:......................................        $444,759.94
Total Revenues:......................................         176,232.48
                                                      ------------------
 
Total Net Loss:......................................        $268,528.46
 


ANALYSIS:

The purpose of presenting a low-tourist month for analysis becomes 
obvious when one looks at the financial data for the month of January 
2000: that is, it demonstrates that tourism to Midway is essential for 
the financial viability of the Midway Islands.

The net loss for operating Midway Atoll in January 2000 was 
$268,538.46. The loss rises to $372,951.48 if one excludes the revenues 
from tourism and visitors. Total fuel sales for that month were 
$35,907.99, which is pale in comparison to the revenues from Guest 
Operations ($104,423.02).

Again, the striking conclusion is that tourism is vital to the 
financial success of Midway Atoll and that fuel sales fall far short in 
making the Atoll financially solvent.

To this end, it is imperative that an experienced, committed entity be 
in charge of the total operations at Midway Atoll. All of its 
individual revenue sources are invariably linked and, as such, must be 
under one chain of command. Anything less will result in financial 
failure, leading inevitably to the closure of the airport, as well as 
to the closure of the Midway Atoll itself.


TOTAL REVENUES:......................................        $558,162.92
TOTAL EXPENSES:......................................        $532,025.22
                                                      ------------------
 
NET PROFIT:..........................................        $ 26,137.70
 

JULY 2001

ANALYSIS OF THE REVENUE/EXPENSE STATEMENT FOR THE MONTH OF JULY 2001:

Based on the above revenue/expense statement, one can conclude that it 
is possible to make a profit in the operations of Midway Atoll if 
reasonable rules of governance are applied. July 2001 was chosen 
because it was the only month MPC made a profit. July was also chosen 
because it is a peak tourist month and one in which a cruise ship did 
not visit Midway. A cruise ship visitation during this time period 
could have substantially increased the revenues. This same source of 
revenues was lessened when the U.S. Fish and Wildlife Service (USFWS) 
increased the restrictions for visiting cruise ships.

From the above revenue/expense statement, it is also clear that fuel 
sales alone are insufficient to offset the administrative expenses 
($532,658.91) of running Midway. It is therefore axiomatic that, based 
on the foregoing data, all of Midway Atoll's assets be utilized to 
ensure its financial viability. For this reason, the Midway Atoll 
should be viewed as a ``histo-eco-tourist'' destination.

Along these lines, it is important that the Midway Airport continue to 
maintain its Type 139 certification by the Federal Aviation Association 
(FAA) to ensure that the airport: (1) continues to act as an extended 
range alternative landing site for twin-engine aircraft (ETOPS) which 
cross the north central Pacific; (2) continues to be available to the 
U.S. Coast Guard's search and rescue missions and (3) continues to 
ensure the ``histo-eco-tourism'' status of the Atoll.

Specifically, the FAA requires a Type 139 Airport Certification for 
``the operation of land airports which serve any scheduled or 
unscheduled passenger operation of an air carrier that is conducted 
with an aircraft having a seating capacity of more than 30 
passengers.'' Without this certification, a sound fiscal policy is 
impossible.

There are a potential number of other sources of revenue that are 
``histo-eco-tourist'' friendly. These resources can be developed if 
this document is found to be acceptable to Assistant Secretary of 
Interior, Judge Craig Manson.

Critical to the long-range success of operating Midway is a prior 
written statement by the USFWS/DOI which delineates the specific rules 
of operation and restrictions before a contract with the private sector 
is agreed upon. This statement is absolutely necessary so that the 
rules of the operation and restrictions are not changed after the fact, 
which has led us to where we are today.

Moreover, a complete financial picture requires a thorough study to 
determine the cost of upgrading Midway's infrastructure to standard 
operational levels, as well as the maintenance costs of such 
infrastructure.

To conclude, the International Midway Memorial Foundation (IMMF) would 
recommend a permanent Advisory Board of Governors including the USFWS, 
National Park Service (NPS), International Midway Memorial Foundation, 
U.S. Coast Guard, U.S. Navy, FAA and the private sector corporation 
operating Midway Atoll. This Board would be responsible for overseeing 
the best interests of Midway and report back to the DOI quarterly in 
its first year of operation.

The International Midway Memorial Foundation (IMMF) is privileged to 
have had the honor of preparing this document for Judge Manson's 
review. The Foundation also expresses its special appreciation to the 
Midway Phoenix Corporation \1\ for its assistance in providing and 
explaining the financial statements included above, and to the Boeing 
Corporation for its support and willingness to assist in the production 
of this document.
---------------------------------------------------------------------------
    \1\ The IMMF wishes to stress that it has no financial or other 
relationship with Midway Phoenix Corporation. The use of the financial 
information is for the sole purpose of demonstrating that Midway Atoll 
can be operated on a sound fiscal policy if reasonable rules of 
operation and restrictions apply.

Prepared by the Board of Directors and Trustees of the International 
---------------------------------------------------------------------------
Midway Memorial Foundation on January 8, 2003.

James M. D'Angelo, M.D.
President/International Midway Memorial Foundation

ADDENDUM:

                    STATEMENT OF OPERATIONS FOR MPC

                              JANUARY 2000

Revenues:

Guest Operations:

Lodging..............................................        $ 33,459.21
Per Diem Lodging.....................................           1,300.00
Transient Lodging....................................          17,070.00
Clipper House Sales..................................           2,881.49
Galley Sales.........................................          21,736.51
Tavern Sales.........................................           1,201.25
Gift Shop Sales......................................           6,189.95
General Store Sales..................................           7,747.42
Long Distance Revenue................................           9,519.19
Bike and Cart Rental.................................           3,080.00
Mini Bar Sales.......................................             238.00
                                                      ------------------
 
Total Guest Operations Revenue:......................        $104,423.02
 


Air Transport Revenue:


Airfare..............................................        $ 21,285.91
Shipping and Weight Revenue..........................           3,891.68
                                                      ------------------
 
Total Air Transport Revenue:.........................        $ 25,177.59
 


Fuel, Airport and Equipment Operations:


Fuel Sales--Aircraft.................................        $ 31,002.08
Fuel Sales--Boats....................................               5.40
Fuel Sales--OSE......................................             167.50
Fuel Sales--FWS......................................             354.00
Landing Fees.........................................           1,979.01
ETOPS................................................           2,400.00
                                                      ------------------
 
Total Fuel, Airport & Equipment:.....................        $ 35,907.99
 
                                 ______
                                 
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                       NW Demolition and Environmental, 
                                                       A Joint Venture 

7.  DEMOLITION

7.1  General Demolition

The general demolition project sequence includes:

  1.  Abatement of environmentally controlled materials (LBP and ACM);

  2.  Salvage of re-usable components;

  3.  Demolition of the upper structure down to slab level;

  4.  Demolition of slab and footings;

  5.  Backfilling/grading with clean un-compacted sand; and

  6.  Other site restoration items and final site cleanup.

The wood framed Midway structures will be demolished with a 29-ton 
excavator fitted with a rotating grapple and/or bucket and thumb (or 
similar machine). NWDE will separate unpainted wood from non-
recyclables as reasonably achieved with this heavy equipment.

Care will be taken to maintain the materials within the building 
footprint. The goal of this initial bulk demolition process is to lower 
the materials to the ground in a safe and controlled fashion, limiting 
the production of fugitive dust and the risk of flying debris. Sites 
that include slab removal will be restored to grade with un-compacted 
clean sand to promote rapid habitat restoration.

The wood-framed structures will be sorted into painted and unpainted 
wood. Painted wood will be hauled to the R-2 unit and treated with 
MAECTITE for disposal. Unpainted wood has the potential to be 
stockpiled with green waste and recycled on island. Due to the presence 
of nails and other mechanical connection items contained within the 
unpainted wood, this option may not be feasible.

Before performing any onsite fieldwork on Midway, NWDE will complete a 
Decommissioning/Inspection Form that highlights all the known potential 
issues that may exist. This form is initialed by the FWS PM or 
designated representative to attest to the awareness of these factors. 
Typically on a project site, all power (i.e., energetic) is deactivated 
prior to work commencement.

7.2  AST Demolition

The ASTs in DU8 scheduled for demolition will be accessed using an 
excavator/shear. The excavator will begin peeling strips from the 
exterior of the tanks. Shears will be used to minimize demolition 
volume and maximize recycling and reuse of materials. The tanks will be 
cut into manageable strips sized proportionately for transport, 
typically less than 20 feet in length using hydraulic shears or cutting 
torches. After the walls of the tank have been sufficiently removed, 
the floating roof residing at the bottom of the tanks will be 
processed. The tank steel will be stockpiled onsite until the end of 
the project and finally transferred to the chosen recycler by NWDE.

7.3  Waste Management

Materials from the Midway demolition activities will be separated to 
the greatest degree possible with specialized heavy equipment. 
Materials will be processed onsite to the degree possible to minimize 
transportation requirements. The following summarizes the general 
management of demolition materials generated on this project.

7.3.1  Clean Structural and Vegetative Wood Wastes

Clean structural wood (free of LBP and ACM) from the demolition of 
select buildings that can be separated from other demolition debris 
will be stockpiled with vegetation in a location on Site mutually 
agreed upon between NWDE and FWS for later processing. The final 
disposition of the material has not been determined although 
preliminary plans include downsizing the material and potentially 
grinding into mulch.

7.3.2  Metal Demolition Debris

Metals that can be separated from other demolition debris will be 
stockpiled in the existing ``bone yard'' immediately east of the 
Seaplane hangar. The metal demolition debris may be reduced in size and 
packed into containers or alternatively transported in its current 
state. The metal demolition debris will be barged off Site to a 
recycling facility by NWDE.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

10-08-2014--Mr. James M. D'Angelo, M.D., USAF, Chairman and 
Founder, IMMF letter to Citizen's Stamp Advisory Committee

11-20-2014--Chairman Fleming, Congressman Jeff Duncan letter to 
Citizens Stamp Advisory Committee

11-23-2014--Ms. Bonnie Campbell letter to Chairman Fleming

12-06-2014--Mr. Richard H. Batcheldor letter to Chairman 
Fleming

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
